<html>
<title> - RECOVERING AFTER HURRICANE KATRINA: ENSURING THAT THE FEMA IS UP TO THE TASK</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
  RECOVERING AFTER HURRICANE KATRINA: ENSURING THAT THE FEMA IS UP TO 
                                THE TASK

=======================================================================

                                (109-34)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 6, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
25-914                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

                  BILL SHUSTER, Pennsylvania, Chairman

JIM GERLACH, Pennsylvania            ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas, Vice-Chair    Columbia
CHARLES W. DENT, Pennsylvania        MICHAEL H. MICHAUD, Maine
JOHN R. `RANDY' KUHL, Jr., New York  LINCOLN DAVIS, Tennessee
DON YOUNG, Alaska                    JULIA CARSON, Indiana
  (Ex Officio)                       JAMES L. OBERSTAR, Minnesota
                                       (Ex Officio)

                                 (iii)

  
                                CONTENTS

                               TESTIMONY

                                                                   Page
 Ashwood, Albert, Vice President, National Emergency Management 
  Association and Director, Oklahoma Department of Emergency 
  Management.....................................................    52
 Baker, Hon. Richard, a Representative in Congress from the State 
  of Louisiana...................................................    45
 Buckley, Kent W., Director, Bolivar County Emergency Management 
  Agency, Bolivar County, Mississippi............................    52
 Burris, Kenneth, Acting Chief of Operations, Federal Emergency 
  Management Agency..............................................    11
 Kilgore, Janice R., CEM, Director, Department of Public Safety, 
  Escambia County, Florida.......................................    52
 Rodriguez, Henry ``Junior'', President, St. Bernard Parish......    52
 Skinner, Richard L., Inspector General, United States Department 
  of Homeland Security...........................................    11
 Wise, Hon. Bob, President, Alliance for Excellent Education.....    52

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Blumenauer, Hon. Earl, of Oregon.................................    79
Norton, Hon. Eleanor Holmes, of the District of Columbia.........   111
Oberstar, Hon. James L., of Minnesota............................   114

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Ashwood, Albert.................................................    73
 Buckley, Kent W.................................................    82
 Burris, Kenneth.................................................    93
 Kilgore, Janice R...............................................   104
 Skinner, Richard L..............................................   118
 Wise, Hon. Bob..................................................   124

                       SUBMISSIONS FOR THE RECORD

Bachus, Hon. Spencer, a Representative in Congress from Alabama, 
  letter to Kenneth Burris, Acting Chief of Operations, Federal 
  Emergency Management Agency, October 21, 2005..................   135
 Buckley, Kent W., Director, Bolivar County Emergency Management 
  Agency, Bolivar County, Mississippi, responses to questions....    88
 Kilgore, Janice R., CEM, Director, Department of Public Safety, 
  Escambia County, Florida, responses to questions...............   106
 Wise, Hon. Bob, President, Alliance for Excellent Education, 
  responses to questions.........................................   130


  RECOVERING AFTER HURRICANE KATRINA: ENSURING THAT FEMA IS UP TO THE 
                                  TASK

                              ----------                              

        House of Representatives, Committee on 
            Transportation and, Infrastructure, 
            Subcommittee on Economic Development, Public 
            Buildings and Emergency Management, Washington, 
            D.C.
    The committee met, pursuant to call, at 11:00 a.m. in room 
2167, Rayburn House Office Building, Hon. Bill Shuster 
[chairman of the committee] presiding.
    Mr. Shuster. The Subcommittee will come to order.
    Before we begin, I would like to ask unanimous consent that 
members of the full Committee not assigned to the Subcommittee 
be allowed to sit with the Subcommittee today, make statements 
and ask questions. Without objection, so ordered.
    We are meeting this morning to begin a series of hearings 
on the recovery effort in New Orleans and the Gulf region. I 
just returned from touring Louisiana, Mississippi and Alabama 
with ten other members of the Committee. I would like to make 
two observations.
    First, I would like to say something about the hard-working 
FEMA State and local employees I saw on this trip. I was very 
impressed with their professionalism, dedication and 
determination to get the job done under very difficult 
conditions. People are literally working around the clock for 
weeks on end. I hope you will let your colleagues know that we 
are extremely proud and appreciative of your efforts. Thank 
you.
    My second observation is that never before has this agency, 
FEMA, in any form been faced with a challenge as extensive as 
the one created by Hurricane Katrina. With over 90,000 square 
miles of disaster area, hundreds of thousands of people 
displaced, tens of thousands of buildings damaged or destroyed 
and a potential health crisis that has been left behind, FEMA 
is being tested like it has never been before.
    The hearing today will focus on ensuring the recovery 
happens in a timely and effective manner. Billions of dollars 
are going to be spent on the recovery and there are many 
questions to be answered, such as, do FEMA and its State and 
local partners have the capacity to manage these dollars? How 
will we ensure that waste, fraud and abuse are limited? How can 
we streamline red tape, build projects and reimburse local 
governments quickly? And what are the major obstacles to a 
successful recovery?
    In the wake of the hurricanes of 2004, there was a 
significant amount of criticism leveled against FEMA for a 
process that was at times very efficient but also at times slow 
and in some instances, stalled. That effort will seem like a 
walk in the park compared with what lies ahead of us. We are 
here today to ensure that FEMA will be up to the mammoth task 
that lies ahead. I am confident that FEMA has the expertise to 
manage the recovery, but I am concerned you may not have the 
capacity to do the job well. This one is simply bigger than 
anything FEMA has faced.
    As I mentioned in the memo, sent to all members last 
Friday, and which is in the folder before you, there are a 
range of issues we will be discussing today, including the 
adequacy of FEMA's recovery staff, the efficiency of the 
process, the types of assistance that may be provided and to 
whom, and several specific issues, including debris removal, 
housing and delivery of money to cash-starved governments.
    It is this last issue, the question of cash flow at the 
local level, that I am particularly concerned about. It 
presents a difficult policy question and has the greatest 
likelihood of hampering the recovery effort. If local 
governments are unable to pay their bills, both disaster and 
non-disaster related, their recovery will come to a grinding 
halt.
    During the recovery from the 2004 hurricane season in 
Florida, which we are still in, many counties in Florida 
complained about delayed approval and payments from FEMA on 
project worksheets. I am told that some of these approvals and 
payments are still outstanding. I am not going to dictate from 
here what is an appropriate amount of time, but we are going to 
closely examine this process to ensure that it does not 
continue to take a year, which I know is too long.
    One of the things I would like to examine at today's 
hearing that I believe contributes to this problem, and I hope 
the witnesses will be able to address, is the issue of staffing 
within FEMA. It is my understanding that the recovery division 
within FEMA started the fiscal year with just 72 full-time 
staffers on board. Is this enough permanent staff? Will the 
temporary staff that is brought in have the expertise and 
training sufficient to meet this huge task ahead of us?
    I hope that we will be able to address these as well as 
many other staffing issues that arose in Florida to prevent 
such problems in the future as we deal with Katrina.
    While we are not the first subcommittee to hold hearings to 
discuss the aftermath of Katrina, I want to ensure my 
colleagues that this will not be the last hearing this 
Committee holds. We have already scheduled a joint hearing with 
our Water Resources Subcommittee and we are discussing the 
possibility of holding a hearing over two dozen Katrina-related 
bills that have been introduced thus far.
    As the Subcommittee with primary jurisdiction, and I would 
add, the broadest jurisdiction, over emergency management, I 
expect that we will play a central role in any legislative 
package that goes forward. During this process, I expect the 
members of this Subcommittee and our full Committee will play 
an active role and I look forward to working closely with all 
of you, Republican and Democrat.
    With that, I would now like to yield to Mr. Blumenauer for 
an opening statement, if he has one.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    I do appreciate your focusing the key role that this 
Subcommittee can play. I am pleased that you have indicated 
that you are looking at a variety of initiatives. I am looking 
forward to the joint hearing with the Water Resources 
Subcommittee. Being able to both have the appropriate response 
to the disaster in the Katrina-ravaged region and to make sure 
that we have Federal policies in place that are going to do the 
job for the future is going to take all our efforts. I 
appreciate your leadership and your commitment.
    We have to learn, not only is there a problem now, and we 
are going to be hearing about that, but there is going to be a 
next time. Rita was the 18th storm of this season. I have seen 
some estimates that indicate that we have already seen more 
death and destruction this hurricane season than in the last 35 
seasons combined.
    We are also facing a problem where, at least until 
recently, more and more Americans have been flocking to coastal 
areas that have been termed hurricane alleys. We have, though 
there are some who remain skeptical, the overwhelming consensus 
of the scientific community that global warming is a reality 
and that we are witnessing rising sea levels that are going to 
make hurricanes and other storm incidents more frequent and 
more severe.
    Of course, as our friends from Louisiana know all too 
painfully, rising sea levels combined with the fact that the 
land area here is subsiding could create a two to five foot 
difference by the end of this century.
    I too am looking forward to hearing from FEMA. It has been 
an agency that I have been working with for the last eight 
years, most recently on flood insurance reform. I think this 
Subcommittee can play a critical role in evaluating what 
changes need to be made with the agency structurally and in 
terms of resources and our own policies.
    I hope, Mr. Chairman, that in the course of your working to 
determine an outline for the Committee, that we can focus 
quickly on the notion of temporary housing. I know people on 
both sides of the aisle are appalled at the notion of spending 
billions on temporary trailer parks that I hear from my 
colleagues in North Carolina and in Florida have an appalling 
habit of becoming permanent, especially when there are hundreds 
of thousands of vacant rental units in the region at reasonable 
rental rates. We have a very effective Section 8 policy that 
can be embraced by conservatives and liberals alike.
    I would hope that as we move forward, we think about long-
term efforts. I will not take the time now, Mr. Chairman, to go 
into them, but I will enter into the record seven principles 
that I hope will guide our efforts in terms of recovery to make 
sure we are not putting people back into harm's way; that we 
are assuring that citizens are directly engaged in the work of 
disaster recovery and mitigation; that we clarify with a 
hearing like this today the Federal Government's disaster 
prevention, mitigation and relief efforts; that we make the 
recovery process a model of transparency and accountability. I 
hope that you will consider a hearing where we can talk about 
how we put into these contracts post-contract analysis and 
accountability provisions, so they get more value for the 
dollar.
    I hope that we are looking at more responsibility at the 
local level to prevent disaster, for mitigation and recovery, 
that we look at prevention and mitigation as a long-term 
element to any federally-funded restoration and that we employ 
natural solutions, wherever possible, to blunt the destructive 
force of nature. I deeply appreciate the Subcommittee's work 
and your willingness to let some of us outsiders to hang around 
with you, because we are going to be working together. I look 
forward to a productive hearing.
    Mr. Shuster. Thank you, Mr. Blumenauer. I look forward to 
working with you. Many of the topics you discussed we have 
plans to hold hearings on those, and then today with the IG, 
talk about some accountability. It is good to have somebody 
with your background. I know you have some municipal 
background, so with your expertise I am sure we can lean on you 
for some of that expertise as we go forward.
    Thank you for being here today.
    We are going to go in order of the way people showed up to 
the hearing this morning. I am also going to strictly enforce 
the five minute rule, so be prepared to hear the gavel come 
down at five minutes.
    I would now like to recognize my colleague from Louisiana, 
Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    I want to commend you for holding this hearing and starting 
this process. Much has been said about FEMA over the past 
several weeks, particularly about its position in the 
Department of Homeland Security. But I think we have many more 
issues to discuss, such as FEMA's role in working with local 
communities and local officials, looking at accountability 
issues, how money is spent.
    And coming from Louisiana, I look forward to the testimony 
and hope to be able to question the witnesses about a number of 
issues with regard to how FEMA interacts with the local 
communities, how can we make it a better organization, 
regardless of whether it is in within Homeland Security or as 
an independent agency accountable directly to the President. 
How can we get it to be the effective organization that it 
really needs to be to deal with these types of disasters?
    We face unprecedented challenges in this recovery, many of 
which we don't have adequate answers yet. So as we move 
forward, I hope that we can address some of those challenges as 
well as work with how will we make this organization, how will 
we make FEMA a more effective organization to deal with the 
problems that we will have in the future.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Boustany.
    I would now like to recognize Ms. Johnson.
    Ms. Johnson. Thank you, Mr. Chairman, and thank you for 
holding the hearing. I appreciated the opportunity to visit on 
Tuesday.
    Let me quickly compliment FEMA for what they have done. 
There are still a lot of questions, but in my area of Dallas, 
where we have thousands of people that have come for either 
temporary or permanent housing, once FEMA arrived, we have no 
complaints. Long time coming, but once they got there, we 
worked very well with them.
    I will have questions later concerning 90 percent of the 
contracts being let to people outside the area. That is a real 
concern for people in the area, so I want to do that when the 
time comes. Thank you very much.
    Mr. Shuster. Thank you, Ms. Johnson.
    Next I would like to recognize the gentleman from 
Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman. I too want to commend 
you for holding this hearing.
    I really don't have anything prepared this morning to say. 
I will save most of my questions and comments for the question 
and answer period. But I believe it is critical that we get to 
the bottom of the issue of FEMA, how prepared it was for this 
devastating event. I just believe it is important that we move 
forward and I look forward to hearing the witnesses. Thank you.
    Mr. Shuster. I would now like to recognize the Chairman of 
the House Administration Committee, Mr. Ney.
    Mr. Ney. Thank you, Mr. Chairman. I want to thank you for 
allowing me to participate in this important hearing today. I 
will be brief.
    In addition to being a member of the Transportation 
Committee, I also chair the Subcommittee on Housing and 
Community Opportunity for Financial Services. Both committees 
have different oversight responsibilities for various aspects 
of FEMA. Of course, we have been working with FEMA and HUD on 
the current situation down in the Gulf.
    As we examine some of the past problems and problems 
currently facing FEMA, I think we need to ensure that we treat 
all natural disasters in a consistent manner. It is a terrible 
thing that has happened in the Gulf. In my district, we have 
suffered severe damages and worked with FEMA quite a lot. In 
fact, we had an evacuation of 7,000 people last year, 7,000 out 
of a county of 70,000.
    As we talk about reforms, I think the one important thing, 
and I am convening a summit in the district of a lot of 
different people involved in this, is that we have to ensure 
that some of the past things that have worked not be changed, 
and some of the problems that we have that need to be expedited 
or changed, should be considered. I know Washington can't solve 
all the problems. We have to work together with local and State 
authorities to ensure any future changes made to FEMA and other 
related Federal programs don't adversely affect the plans that 
they have in place already in the State and local levels and 
other jurisdictions.
    Again, I know it has been a tough job, but I think having 
this hearing will bring a lot of things to light and as there 
are reformation bills, we want to look at the process. I want 
to also close by recognizing someone that is no stranger to 
floods. I see former Congressman Bob Wise across the river in 
Wheeling, West Virginia, from where I live. He knows the 
flooding situation and has been very active to help people down 
there.
    Thank you.
    Mr. Shuster. I will take this opportunity to recognize the 
Ranking Member, Ms. Norton, for an opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman. I apologize, 
I was the lead witness in the Senate on a matter affecting the 
District of Columbia before its own D.C. Subcommittee. I 
appreciate your indulgence.
    I particularly thank you, Mr. Chairman, for calling this 
first in a series of hearings. You are being very careful, 
because you have studied what should be studied and you have 
indicated that there are a whole series of matters affecting 
FEMA that you intend to look into.
    I fully agree with your purpose today to move from 
assigning blame, acknowledging that there were failures, at 
every level of government, but instead to concentrate on our 
responsibility, to focus on FEMA, which reports to this 
Subcommittee, with the goal of ensuring that the ongoing 
response of FEMA is efficient, effective and responsive to the 
needs of the Gulf region and other regions of our Country.
    Under your predecessors as Chair, this Subcommittee had 
five FEMA hearings or markups on the Homeland Security Act of 
2002 that transferred all of the statutory functions of the 
Stafford Act from the Director of FEMA to the Secretary of the 
Department of Homeland Security, further delegated to the 
Undersecretary for Emergency Preparedness and Response. 
Although I am a member of the Homeland Security Committee who 
was a strong advocate of the creation of the Department, I have 
reluctantly become an original co-sponsor of a bill to move 
FEMA from DHS to help enable it to once again become the 
professional quick recovery agency it became in the 1990s.
    At our September 24th, 2003 markup, I cautioned about 
challenges to hazard mitigation activities. Those are the 
activities that State and local governments engage in before 
the hazard occurs. Because those challenges were already quite 
clear then. State and local officials were complaining that the 
increased emphasis on terrorism that kept them so busy trying 
to keep up with the security alerts, overtime costs and the 
myriad of terrorism-related grant programs that hazard 
mitigation, that we now know might have led to a better 
response to Katrina, was in steep decline.
    Yet the Administration in its fiscal year 2003 budget 
request had proposed the elimination of the hazard mitigation 
program, and the fiscal year 2003 Omnibus Appropriation Bill, 
over the objections of our Committee and various stakeholders, 
reduced the mandated percentage of hazard mitigation funds from 
15 percent to 7.5 percent, cutting it in half. The reduction so 
inhibited the ability of the State and local governments to 
effectively carry out preparation for hazards and so 
dramatically increases the cost of natural disasters that we, 
this Subcommittee, restored funding levels back to 15 percent 
at that markup.
    In May of 2004, we were very concerned that the President's 
2005 budget proposal reduced funding for the Emergency 
Management Performance Grant program, even though the Congress 
had indicated its strong support of State and local personnel 
in planning when it included specific language in the fiscal 
year 2004 DHS appropriations bill, stating, ``Emergency 
planning is the backbone of the Nation's emergency management 
system ... now more than ever, the planning activities carried 
out in this program are of the utmost importance.'' The result 
of this short-sighted shift of funding from FEMA is clear in 
the aftermath of Katrina.
    Presently, almost one million people in the Gulf region 
have registered with FEMA for individual assistance, but only 
72 full-time employees are in the Recovery Division. This 
division is responsible for reviewing the paperwork which is 
the basis for reimbursement by FEMA for eligible activities, 
including debris removal, housing assistance and reconstructing 
public buildings and infrastructure. Although FEMA has a vast 
network of disaster assistance employees and other reserve 
employees that it can call upon, the Agency internally 
obviously lacks the management talent to adequately respond 
completely to Katrina's victims.
    The District of Columbia was among the first local 
jurisdictions to reach out to Katrina victims and 300 were 
cared for here and given the full bevy of services. Like the 
District, many State and local governments have laid out 
millions of dollars up front without payment as yet from FEMA.
    However, my concern is for the more than 75,000 people 
still in shelters and thousands of others away from family and 
friends. Is today's FEMA capable of assisting victims of 
disaster through the direct provisions of housing or through 
temporary housing solutions? Is FEMA capable of addressing the 
needs of over 300,000 people who have requested rental housing 
assistance? Is FEMA prepared for the long haul that Katrina 
recovery necessitates?
    This much is clear: FEMA has suffered rather than 
benefitted from its absorption into DHS. Although the exact 
numbers are disputed, the Agency's core budget for disaster 
preparedness has been cut every year since it went into DHS. 
Its staff has been reduced by 500 positions. Hurricanes, 
floods, tornadoes and other natural disasters come on cue every 
year, but three out of ever four local preparedness and first 
responder grants have gone for terrorism-related activities.
    The GAO reports that 75 percent of next year's grants are 
similarly targeted to terrorism, despite local officials' 
complaints that the most urgent need now is for natural 
disasters and accidents. FEMA has suffered rather than 
benefitted from its submersion into DHS.
    Some considerable direction or redirection of funding to 
terrorist activities was fully justified after 9/11, but we now 
know that billions of dollars were not distributed on a risk 
basis. The recent Homeland Security reauthorization requires 
risk-based funding and strategies. We also know, not only from 
Katrina but also from the way FEMA was overwhelmed by four 
hurricanes in Florida in 2004 that all hazards has become a 
bureaucratic slogan, and that the evidence that FEMA was in 
complete disarray was already unmistakably clear from the 
Florida experience last year.
    FEMA has apparently regressed to the state James Lee Witt, 
the first career disaster specialist to head FEMA, found it in 
1993 when he reorganized and energized the Agency and was 
praised for FEMA's recovery response to the earthquake in 
Northridge, California, and to the Mississippi River flooding. 
This Subcommittee cannot alone return FEMA to those halcyon 
days of praiseworthiness. But with the series of oversight 
hearings you begin today, Mr. Chairman, we can pledge the 
oversight the Agency will need to assure the improvement that 
the public expects after the lessons taught by Katrina.
    Thank you very much again for this hearing, Mr. Chairman.
    Mr. Shuster. Thank you, Ms. Norton.
    I would like to remind my colleagues, I think we have the 
clock back up and running, so we are going to adhere strictly 
to the five minute rule.
    I would like to recognize Mr. Poe for an opening statement.
    Mr. Poe. Thank you, Mr. Chairman.
    I appreciate this hearing this morning. I have a very 
strong interest in FEMA. My Congressional district is located 
across the Sabine River from Louisiana, Mr. Boustany's 
district. We have a couple of issues that we are having to deal 
with, two ladies of the Gulf. When Hurricane Katrina hit New 
Orleans and Louisiana, a lot of those folks from Louisiana came 
across into Texas. We still had 15,000 of them in Jefferson 
County, Texas before Rita hit. Several other hundreds of 
thousands came into Texas and are dispersed all over the 
Country.
    We felt those repercussions, and the folks in Jefferson 
County started working and trying to help those dispersed 
individuals. But not long after that, Rita hit my Congressional 
district. In fact, I just got off the phone with the mayors of 
my Congressional district. Half my Congressional district is 
still without power and water, and Katrina evacuees had to 
leave with Rita evacuees to parts all over the Country again.
    So we are very concerned about the aftermath of both of 
these hurricanes, and I will be very blunt: the number one 
question I get from regular folks citizens, mayors and other 
elected officials is issues regarding FEMA. They ask me, 
where's FEMA, what are they doing. I think that this hearing is 
important to address those specific issues.
    The number one concern I would mention and have to deal 
with is communication. I think FEMA, based on these two 
hurricanes that impacted directly in my Congressional district, 
does a poor job of communicating. At least that is the way it 
comes across to the average person that is sitting out there in 
the swamp without a roof on their barn or their home. So I 
think that is a work that needs to be done.
    And I asked three questions that FEMA probably ought to be 
able to answer to people that are concerned about Federal 
response: what can FEMA do in a particular situation; what will 
they do, and what are they specifically doing at the time. 
Those are really the three questions that I get, and it all has 
to do with communication.
    So I look forward to the testimony this morning, because I 
get to talk to all those mayors again tomorrow morning. Thank 
you.
    Mr. Shuster. Thank you, Mr. Poe.
    I would now like to recognize Mr. Taylor, if he has an 
opening statement.
    Mr. Taylor. Mr. Chairman, I just want to thank you and my 
colleagues for coming down to Mississippi earlier this week. I 
know the presentations in Mississippi were brief, because your 
eyes told you everything you needed to see, one bridge two 
miles long completely destroyed, another bridge a mile and a 
half long completely destroyed. Highway 90 along the beach 
running to Harrison County gone, for all practical purposes. 
Tens of thousands of homes just leveled.
    And we have obviously got some challenges. Prior to the 
storm, our local communities had requested about $250 million 
of infrastructure for people who don't have a central water 
system, who don't have a central sewer system. It has obviously 
been complicated by those larger cities that have now been to a 
certain extent destroyed and the need to rebuild that 
infrastructure.
    So we are certainly glad to have the FEMA folks here today, 
and again, I am personally grateful that you and so many other 
of my colleagues took the time to visit south Mississippi 
earlier this week.
    Mr. Shuster. Thank you, Mr. Taylor. We certainly appreciate 
your efforts. I have been down there twice now and I keep 
hearing the stories about how Congressman Taylor has been 
literally in the mud pulling people out and helping people. He 
is one of these people that were affected, lost his house. So 
our thoughts and prayers are certainly with you and your 
family, Gene.
    I would now like to recognize Mr. Bachus for an opening 
statement.
    Mr. Bachus. I thank the Chairman.
    Gentlemen, I have actually been in Louisiana and 
Mississippi with Gene Taylor and others the day before 
yesterday. I would like to thank you for the recovery efforts 
that are going on there and some of the mitigation that is 
going on.
    I do have a question, just as a thought or question about 
the overall. What Americans saw on their TV screens as that 
category 5 hurricane approached New Orleans, I think that we 
all made assumptions that turned out not to be true. The 
assumption I think most Americans had made is that somebody was 
in charge and responsible for preparing for those hurricanes. I 
think as it turned out we weren't very prepared as a Nation.
    Now, I don't know whose responsibility that is, and still, 
there are a lot of questions whether it is local, State or 
Federal. Now, FEMA was created to consolidate and coordinate 
the Federal effort to prepare for and respond to disasters. 
Part of that definition is to prepare for disasters. Anybody 
that saw what went on in New Orleans knows we weren't prepared.
    Now, my question is, who was supposed to do what? More 
importantly, not because of a blame game, but if it happens 
again, are all those things that went wrong in New Orleans, are 
they going to go wrong again?
    One thing that, after this storm, that I became more aware 
of, now, before this storm there were all these predictions 
what a real catastrophe it could be that if New Orleans had a 
direct hit from a hurricane. We heard that a year before, six 
months before. In 2001, in 2001, four years before this 
hurricane hit, FEMA did a study. That study said that a major 
hurricane, category 3 plus, directly hitting New Orleans, is 
one of the three likeliest most catastrophic disasters in our 
future.
    In other words, FEMA itself said of the three major 
catastrophes most likely to happen in the future, one of them 
is a direct hit on New Orleans. So it was likely to happen.
    With that in mind, why, for instance, I mean, who came up 
with taking people into the Superdome and telling them to 
provide five days worth of water and food for themselves as 
opposed to getting them out of the city? Who was responsible 
when Amtrak offered a train for 1,000 people to get out of New 
Orleans, what was the Federal role there? Was there any role?
    And the city had a preparedness plan, and part of it said 
that people would bring their own food into the Superdome. It 
was predictable that the sanitation and the lights would go out 
there.
    Was there anybody at the Federal level that said, you know, 
this won't work? Because those are my questions. In preparing, 
what are your authorities? What do you do when you look over 
these plans which turned out to be not very much of a plan at 
all in New Orleans? Did you bless, for instance, the mayor when 
he said, everybody that can get out, get out, but provided no 
transportation for those who didn't have transportation?
    Four years before, you predicted that this event--and I am 
not talking about you personally, but the Agency predicted this 
event may happen. If it happens again, what is your role? Those 
are basically my questions. And I know you are here to testify 
today about your recovery efforts and what you are doing with 
things like debris removal.
    But as far as psychological, the debris removal that I 
think American citizens are still dealing with is those images 
in our mind of people trapped for five days without water and 
food. That is really my remark.
    Mr. Shuster. I thank the gentleman.
    And I just want to remind my colleagues that I think Mr. 
Bachus just said it, this hearing is focusing on recovery 
efforts. I know we have the chief operating officer of FEMA 
here, and obviously if members ask questions, we certainly want 
you to respond to them. But again, the focus of this is 
recovery efforts. That is why the Speaker set up the Katrina 
Committee. We are dealing with those questions of the five days 
before and the five days after.
    Mr. Bachus. I would say, just as a subcommittee chairman, 
this Subcommittee has jurisdiction over FEMA. Part of the 
charge is preparing recovery. Part of the recovery effort 
depends on how well we were prepared.
    Mr. Shuster. Absolutely.
    Mr. Bachus. Part of what went on with recovery was because 
we weren't prepared and there were things we had to do after 
the hurricane which we are looking at today because someone 
didn't so something before the hurricane.
    Mr. Shuster. Yes, the gentleman is absolutely correct in 
that analysis. We are going to look into those aspects of it. 
But as I said today, we really want to focus on those recovery 
efforts, as you mentioned, as we move forward.
    I know members have, there are 535 members of Congress that 
have those exact same types of questions, and we are going to 
sift through it all and figure that out and get to those 
answers.
    We have three panels of witnesses appearing before us 
today. The first will be comprised of two witnesses from the 
Department of Homeland Security, Mr. Ken Burris, who is the 
Deputy Undersecretary for Emergency Preparedness and Response, 
and Mr. Richard Skinner, the Department of Homeland Security's 
Inspector General.
    These witnesses are being called to discuss what the 
Department is doing to manage this massive recovery effort; 
what additional resources are required to ensure it works 
efficiently; and what systems or processes are required to make 
sure it is not abused. I want to welcome you both here today.
    Our second panel is going to consist of our colleague from 
Louisiana and a member of this Committee, Richard Baker. While 
he normally would testify first, he was not able to join us 
now, and he will be here around noon and we will have him 
testify after the first panel.
    And the third panel will be witnesses representing State 
and local officials who have worked or are working with FEMA on 
the recovery effort. We hope to hear from them how the system 
works or doesn't work for the end users.
    I would like to now ask unanimous consent that all our 
witnesses' full statements be included in the record. Without 
objection, so ordered.
    For each panel, we will hear all the witnesses' statements 
and then ask questions of the entire panel. Since your written 
testimony has been made part of the record, the Subcommittee 
will request that you limit your testimony to five minutes. 
With that, the first panel, Mr. Burris, you may proceed.

   TESTIMONY OF KENNETH BURRIS, ACTING CHIEF OF OPERATIONS, 
 FEDERAL EMERGENCY MANAGEMENT AGENCY; AND RICHARD L. SKINNER, 
    INSPECTOR GENERAL, UNITED STATES DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Burris. Thank you, Mr. Chairman, Representative Norton 
and members of the Subcommittee. I am Ken Burris, I am the 
Acting Director of Operations at the Federal Emergency 
Management Agency within the Department of Homeland Security. I 
serve in the role as the Chief Operating Officer.
    As the response efforts for immediate lifesaving and life-
sustaining efforts end a long and immensely challenging 
recovery effort is already well underway. To date, FEMA has 
registered over 2 million victims for assistance to provide 
housing assistance or direct assistance, and has provided 
direct assistance to 390,000 displaced individuals and 
families.
    At this point, there were more than 300,000 evacuees from 
Hurricane Katrina sheltered in congregate care spread out 
around 48 different States in our Country. Today, that shelter 
population in congregate shelter care is down to 57,000. We 
have a little more work to do to get that to zero.
    Our first and foremost priority is to address the housing 
needs of those that are displaced. This will be a partnership 
with State and local leaders that play a central role in 
determining the nature and the shape of this type of planning 
and rebuilding process. We will support and supplement State 
and local efforts through our processes, while continuing to 
assist the individual disaster victim.
    Our goal is to move all Katrina evacuees out of congregate 
care by the middle of October. In Louisiana, Mississippi, Texas 
and Alabama as well, there were hundreds of thousands of homes 
that were destroyed in one of America's largest natural 
disasters. The housing stock in the most impacted areas in the 
southern parishes of Louisiana and the counties of Mississippi, 
there is an estimated short and mid term housing requirement 
for 600,000 households.
    Some of these households are still in congregate care, 
while many of those are displaced in hotels or motels, or are 
living with family and friends. These individuals too will 
require that type of long term housing assistance. The Federal 
Government is committed to helping the citizens of the Gulf 
Coast overcome the disaster and rebuild these devastated 
communities.
    Our strategy is based on the single premise that assistance 
of victims of Hurricane Katrina is to reestablish a normal 
living environment as quickly as possible in the towns and 
communities where they want to live, so as long as the local 
infrastructure can support that type of long term living. In 
reaching these goals, we apply three basic methodologies.
    The first methodology is to provide direct to families and 
individuals assistance that allows them to choose for 
themselves the best housing options where they can best find a 
job, fit into the community and decide for themselves how they 
can best move forward. The Federal Government's disaster 
assistance is not and does not take the place of insurance. 
None of our programs are that comprehensive or provide that 
comprehensive coverage. But we can help and we will help where 
eligible families are available to have housing assistance for 
temporary housing up to 18 months.
    Last month, we announced a comprehensive housing assistance 
program to meet the immediate needs of individuals and families 
displaced by Katrina. DHS and the Department of Housing and 
Urban Development announced measures that provided transitional 
housing assistance to evacuees, to cut through red tape and to 
provide the flexibility, the choice and the portability needed 
to remove themselves from congregate care and temporary 
shelters to more stable housing.
    We also expedited aid to evacuees with immediate housing 
needs. Because of Katrina's unprecedented scope and widespread 
dispersion of the evacuee population, FEMA accelerated the 
assistance to individuals and households program to provide 
housing assistance to homeowners and renters. To reduce the up 
front paperwork and provide immediate need, households will 
receive an initial lump sum payment of $2,358 to cover three 
months of household needs. This payment represents a national 
average of the fair market rent for a two bedroom unit. Those 
who qualify for further benefits may be extended assistance up 
to 18 months, for a total of $26,200.
    HUD is also providing specialized housing assistance 
through a program that is called the HUD's Katrina Disaster 
Housing Assistance Program. While many and most of these 
evacuees will receive FEMA assistance, others will be eligible 
for the HUD assistance.
    We have instituted the Disaster Unemployment Assistance 
Program and at this point, we have distributed $48 million to 
the Department of Labor for unemployment benefits for those who 
qualify.
    The second method in assisting the States that have been 
encumbered by the increased demands on their limited resources, 
it is apparent that many of these States welcomed the evacuee 
population into their States. Through that, there has been 
impact on their local services. We have agreed to commit to 
reimbursing the States for the increased shelter costs of this, 
as well as the increased cost to the educational system where 
States have experienced an insurgence of students within their 
school systems.
    As always, we stand ready to help in rebuilding communities 
in a safer, less vulnerable situation for future loss of life 
and property. We do this through our public assistance program. 
I know we want to talk about some of our other contracting 
methods, but our public assistance program, let me say that the 
States will be paid a portion of this through the grants 
process. We enter into a lot of awarding through public works 
process, through the grants process. Through that process, we 
will try to assist as well as we can in the rebuilding efforts 
in these areas to make these communities safer and stronger.
    That concludes my oral statement. I will be glad to answer 
any questions you may have.
    Mr. Shuster. Thank you, Mr. Burris.
    We will now hear from Mr. Skinner. You may proceed.
    Mr. Skinner. Thank you, Mr. Chairman, Ranking Member 
Norton, members of the Subcommittee and others.
    Today I would just like to summarize a couple of points 
from my prepared statement which I have submitted for the 
record. First, concerning OIG community oversight. Through the 
PCIE, that is the President's Council on Integrity and 
Efficiency, their homeland security roundtable, which I chair, 
the Inspector General community has been working together to 
coordinate our respective oversight efforts from the beginning. 
Collectively, we have prepared plans to provide oversight for 
99 percent of the $63 billion already appropriated to date for 
Hurricane Katrina relief efforts.
    As with all presidentially-declared disasters, FEMA 
establishes or coordinates the Federal Government's relief 
efforts. To do this, they administer some of the funds 
directly. But the bulk of the funds are distributed to other 
Federal departments through mission assignments, or State 
agencies through grants. As of October 4th, FEMA has made 
grants to Katrina-affected States totaling about $1 billion and 
mission assignments totaling about $7 billion, of which about 
$6 billion went to the Department of Defense.
    The overriding objectives of the OIG plans are to ensure 
accountability, promote efficiencies and to detect and prevent, 
and I emphasize prevent, fraud, waste and abuse. Insofar as a 
large portion of the funds obligated to date have been or will 
be spent for contractor support, the OIG's current plans will 
naturally focus on contract management. This includes 
performing internal control assessments or risk assessments of 
procurement systems, monitoring contract operations and 
reviewing the award and management of all major contracts, 
particularly no-bid or limited competition contracts.
    In this regard, the OIGs are looking at the evidence to 
support the no-bid selection or decision, the criteria used to 
select one contractor over another, the reasonableness of the 
costs associated with the service or product to be delivered, 
the qualifications of the contractor selected, and the support 
for the payments made to the contractor.
    Notwithstanding our best efforts, however, to prevent 
problems through an aggressive oversight program, history has 
shown that there are some who will try to beat the system 
through fraudulent means. Accordingly, the OIGs will be working 
closely with the newly established hurricane fraud task force, 
which is chaired by the assistant attorney general of the 
Criminal Division in the Department of Justice.
    The task force is designed to investigate and prosecute 
disaster-related crimes. It will track referrals of potential 
cases, coordinate with law enforcement agencies such as the IGs 
to initiative investigations, match referrals with the 
appropriate U.S. attorney offices in the affected States, and 
ensure timely prosecution of cases. In this regard, an OIG 
hurricane relief fraud hot line has been established and has 
been widely publicized throughout the Gulf Coast.
    As a result of these efforts, we have already made eight 
arrests and expect to make many more in the days and weeks to 
come. To date, the OIGs have committed a total of over 350 
auditors, investigators and inspectors in this combined effort.
    Now with respect to our office, the DHS OIG oversight 
responsibilities. Based on my experiences as a deputy inspector 
general at FEMA, I recognize that a disaster of this magnitude 
will require long term commitment. Accordingly, to ensure that 
we remain focused, not just on short term response operations, 
but also on long term recovery initiatives, which require our 
involvement for the next three, five, seven, maybe even ten 
years, I have created an office to focus solely on Hurricane 
Katrina relief activities.
    I just recently hired an assistant inspector general to 
manage this effort on a full-time basis. Sixty employees have 
already been assigned to this effort, and over 30 more will be 
added within the next 3 months. We are prepared to add even 
more resources, provided funding is made available as the need 
arises.
    We have had personnel monitoring FEMA operations since the 
hurricane struck September 1st, and currently have auditors and 
investigators assigned to the joint field offices in Baton 
Rouge, Montgomery, Alabama, Jackson, Mississippi and Austin, 
Texas. Our auditors will provide oversight of the entire 
spectrum of FEMA programs: individual assistance, temporary 
housing, public assistance and mitigation when it comes online.
    Finally, we have initiated a review that will focus on 
FEMA's preparedness for an response to the devastation caused 
by Hurricane Katrina. This review will be done in close 
coordination with GAO.
    In conclusion, I would like to say that collectively, the 
OIG community is uniquely qualified and in position to provide 
the most timely and effective oversight of Hurricane Katrina 
and Hurricane Rita activities. You can be sure that the OIG 
community stands united in its efforts to ensure that taxpayer 
dollars are spent wisely today and in the years to come as the 
communities and victims of the Gulf Coast region get back to 
normal.
    Mr. Chairman, that concludes my statement. I will be 
pleased to answer any questions.
    Mr. Shuster. Thank you, Mr. Skinner.
    We are going to go into the question rounds, and again, I 
want to remind my colleagues we are going to stay to five 
minutes. I am sure everybody has many questions. But we will 
keep it to five minutes, and I am going to enforce that 
strictly.
    As I mentioned in my opening statement, I have a great 
concern about some of these not only in New Orleans, but the 
smaller communities that we traveled to. I know Hancock County, 
a small, rural county, we talked to the city manager of Biloxi 
and in New Orleans, they are running out of cash. The mayor of 
New Orleans just laid off, 20 minutes after he left a briefing 
with us, he laid off 3,000 workers out of the 7,000 workers in 
New Orleans. They just don't have cash.
    The Stafford Act, it does not make, well, let me back up. 
The interpretation of the Stafford Act says that the FEMA can 
only pay for overtime, but in reviewing the Stafford Act, 
nowhere does it say overtime or straight time in there. I 
wanted to know what your view is. Can the President order cash 
to flow to those affected areas to pay for straight time? You 
can both comment on it, if you wish.
    Mr. Burris. I guess Rick is going to let me go first, since 
I am the policy guy and he is the legal guy. On a policy basis, 
we have had a longstanding policy that the straight 
appropriated funds, that jurisdiction would be applied to their 
services, are the responsibility of that jurisdiction. We pick 
up the overage over the normal appropriated funds.
    Mr. Shuster. But on the legal side, it doesn't say 
specifically in the Stafford Act, your policy and 
interpretation has been that in the past, I understand that. 
But we are facing a situation right now where people just don't 
have the cash to pay the straight time. So is it your view, I 
guess what I am looking for is, do we need to correct it 
legislatively, or can you go back and the President can 
reevaluate and say, we have to get them some cash, let's just 
move forward?
    Mr. Burris. I am aware of efforts, we also administer the 
disaster loan program that currently has a cap on it of $5 
million. That is currently being revisited to raise that cap to 
allow loans from that to happen.
    Mr. Shuster. Also I understand that you want to make it 
really a loan program, because in the past it has turned into 
just a grant program, which I think is wise.
    Mr. Burris. That is correct. In the past, it was, most of 
those lower than $5 million were just forgiven.
    Mr. Shuster. Right. I think we may even be trying to 
correct that legislatively this week with the CDL program.
    Mr. Burris. I read that this morning.
    Mr. Shuster. But back to, is that something you are willing 
to go back and take it up to the highest levels?
    Mr. Burris. Yes, sir.
    Mr. Shuster. We talked to Biloxi yesterday, and their city 
manager said 80 percent of their revenue is gone. They just 
don't have the cash, everybody is cash-starved. So the CDL is 
one way, but looking at the Stafford Act paying for emergency 
personnel is what we are looking at, the police, the firemen, 
getting them paid so they are on the job.
    The second question I have is, does FEMA have the manpower 
to manage this recovery, which I believe Mr. Skinner said, this 
is a long term project. We are talking three years probably, or 
maybe longer. As I look at some of the statistics, the IG's 
office has 90 inspectors and FEMA has 70 program managers. We 
have 20 more inspectors than we do managers. It seems to me, 
especially at this point, we are going to need a lot more 
managers. What is your view on that, Mr. Burris?
    Mr. Burris. The Stafford Act allows us the availability to 
search and have employees come on board in FEMA that are direct 
charge to the disaster. We have done that. We are in the 
process of hiring additional employees to staff up our recovery 
efforts.
    But we also rely heavily upon our technical assistance 
contractors, in which we have, private industry goes out, 
provides engineering assistance, provides technical types of 
assistance to local jurisdictions to help them through the 
process. Currently there are around 3,000 of those in the 
affected areas.
    So we have the ability to hire term employees that are 
charged specifically to the disaster. We do that regularly. We 
still have employees on our rolls that are term employees from 
the Northridge earthquake. We had Andrew employees on our 
employees for 10 years. So it is a long term effort that goes 
on in a recovery. The Stafford Act provides us the flexibility 
to staff up and do that.
    Mr. Shuster. Are these people going to be high level, they 
are going to be able to make decisions? What it sounds to me 
like is, you sort of have the workers out there, and it would 
seem that with 70 programs you need more people that can make 
decisions. The concern is, where do they come from and how long 
do they take to train?
    Mr. Burris. On the policy decision front, especially in our 
recovery division, they have put together a task force to 
address policies as they come along. I can say I have to deal 
with a policy decision several times a day to adjust things. 
The debris removal policy was one of them that we streamlined 
to make it work specifically for this event.
    So the intent and purpose is to provide workers in theater, 
and then we also provide senior level managers through that 
method in the field that have the ability to make limited 
policy. But policy that affects disaster response on a 
nationwide basis has to come up to Washington to be reviewed.
    Mr. Shuster. That is a great concern of mine, and your 
answer is concerning me, that we seem to be doing business as 
usual. This is enormous. We need decision makers. I know the 
process, I saw the process in Florida. It goes up the line, it 
comes to Washington and the next thing you know, the facts 
aren't the same as they were when it started out.
    I would encourage you, let's do some things differently. 
Let's push those decisions out into the field. We are going to 
make mistakes, there is no doubt, no matter how we do it. But 
getting the relief to these people, and this is, as I said, and 
you know it, it is huge, it is different than anything we have 
faced. I think we ought to be looking at it differently.
    I see the clock has expired, so I am going to live by the 
five minute rule and die by the five minute rule. Next I would 
like to recognize Ms. Norton.
    Ms. Norton. Well, if the Chairman lives and dies by it, you 
see the message he is sending to the rest of us.
    [Laughter.]
    Ms. Norton. I would like to ask Mr. Skinner a question 
about this sole source notion, because it is very easy to 
criticize Government for sole source, of course, if there is no 
other way to do it. You say, get us somebody here that does 
what needs to be done.
    This Committee has jurisdiction over GSA. What I am 
familiar with is the GSA schedule. That doesn't have to do with 
emergencies. What it means is that people have pre-competed so 
that you don't have to think about sole source, because in fact 
you know who is qualified, you go to a set of qualified people, 
you get a low bid just like that, because they are all 
qualified. It has been a competition.
    Is there anything of the kind like the GSA schedule that 
FEMA uses or should use?
    Mr. Skinner. They in fact do use the GSA schedule where 
they can. In this particular disaster, however, I think the 
scope of the work that was required required FEMA to think 
outside the box, go beyond what was on that GSA schedule.
    Ms. Norton. What items, for example, were unanticipated, 
were not on the schedule?
    Mr. Skinner. The need for, in going with the Corps of 
Engineers, for example, in the debris removal.
    Ms. Norton. I'm sorry?
    Mr. Skinner. The Corps of Engineers, who FEMA tasked to 
lead our debris removal efforts.
    Ms. Norton. And the Corps of Engineers alone does the 
debris removal after these hurricanes and earthquakes? They are 
contractors who are on your schedule who do that?
    Mr. Skinner. Yes. They are the primary agency tasked to 
lead our debris removal efforts, I believe. The States also, I 
think, have the option to do their own debris removal.
    Ms. Norton. Well, there was no State option here, 
obviously. What I am trying to find out is, are you solely 
dependent upon the Corps of Engineers, or were there 
contractors on the GSA schedule or on some other schedule that 
could have or should have been called to that task, for 
example, since it is perfectly foreseeable?
    Mr. Burris. When you are talking about solely dependent on 
the Army Corps of Engineers, in the debris removal, in this 
particular disaster there is direct Federal assistance for the 
first 60 days. That means that the Federal Government is going 
to pick up the cost for that direct Federal assistance.
    We turn to the Corps for debris removal. Now, the Corps, in 
and of itself, does not themselves do all this debris removal. 
They go through a contracting process where they contract to 
local contractors or national contractors to assist them in the 
debris removal process.
    Ms. Norton. So why weren't there contractors--and since I 
was cited by Mr. Skinner now, I asked for an example, he said 
debris removal, he said that was something that was unforeseen. 
I am trying to find out why that was unforeseen since that 
obviously is necessitated whenever there is a natural disaster.
    Even if there was a scope of it, the Country is crawling 
with debris removal people. Do we need to have the GSA schedule 
expanded, there just weren't enough people on it, the Corps 
doesn't have enough companies on it? Why was it necessary to do 
sole sourcing debris removal?
    Mr. Skinner. Congresswoman, we are looking at that as we 
speak, at all the contracting activities that took place 
immediately following this disaster, from day one. One of the 
issues that is high on our priority list is the debris removal 
issue. What we have learned today is that the Corps of 
Engineers does in fact have pre-existing contracts for 
contractors to come in and remove debris.
    However, the extent of the devastation here was so great 
that they had to--we absorbed all the available resources that 
were available under those pre-existing contracts. They had to 
go outside of the pre-existing contracts, outside the GSA 
schedule and look for other contractors. That is what we are 
observing right now.
    A lot of that was done on a sole source basis. We are 
looking at that to ensure that although it was sole source, you 
still have to act in a very reasonable manner when you 
negotiate these contracts.
    At the same time, you have your States and you have your 
local governments, many of whom chose to take charge of their 
own debris. In Alabama, for example, I believe 90 percent of 
the debris removal operations is not being handled by the 
Corps, but being handled by the State in itself. In the State 
of Mississippi, 50 percent of the debris removal operations, 
based on our assessments right now, are being handled by the 
Corps, whereas the State and the local counties have chosen to 
handle their own.
    All of these people, most of these people, we are not 
complete in our assessment, but it looks like about 90 percent 
of those contracts that were entered into were on a sole source 
basis. I am not suggesting there is anything improper about 
that. We were in the middle of a battle, the debris had to be 
removed off the major arteries, the ambulances, police, law 
enforcement and also to allow people to come in to clean up. 
But we are in fact looking at that, and that is generally what 
we are seeing.
    In Louisiana, I believe the Corps is the predominant lead 
for the debris removal operations in that State.
    Ms. Norton. So we have one reform that you think is 
underway already, and that is to expand the list of 
contractors, so that sole source would not be necessary, given 
what we have learned from Katrina?
    Mr. Skinner. I am not aware of anything underway to expand 
that ability, but at this point--
    Ms. Norton. Mr. Burris, is there anything under--that is 
what you are being criticized for as much as anything. I am 
just trying to get an answer, if we have learned anything and 
if we have, whether or not we are contemplating dealing with 
those things. We didn't do it after Florida, I am trying to 
find out if lessons can be learned and attended to.
    Mr. Burris. Let me clarify this Corps of Engineers thing. 
Corps of Engineers was mission assigned. They were not a sole 
source contract.
    Ms. Norton. I know the Corps of Engineers was not--look, I 
didn't get--I will leave that there. That was given to me by 
Mr. Skinner as an example. I didn't accuse anybody. And let me 
just go on to--
    Mr. Shuster. The gentlelady's time has expired. We know 
everybody has a lot of questions here, we want to be fair to 
everybody. Maybe that is something we can offer in writing to 
you, a question, and you can give us back detail. I think it is 
a detailed answer to it, and we want to make sure we get the 
answers. But I now want to move on to Mr. Dent for five 
minutes.
    Mr. Dent. Thank you, Mr. Chairman. My question will be for 
Mr. Skinner.
    I read recently in a series of articles by the Tribune 
Services, you might have seen those articles about clear cases 
of fraud, waste and abuse with respect to the FEMA recovery 
effort for previous disasters. It identified specifically 
situations in Florida and also in Detroit, Michigan. Some of 
the things they pointed out in those stories really were quite 
alarming.
    For example, States declared counties disaster areas where 
the counties themselves had not asked to be added to that State 
disaster list. It was submitted to the Federal Government. 
There were cases of many people, far too many people, who were 
not impacted by the disasters in Florida and Detroit, people in 
alarming numbers, they had received checks from FEMA.
    I am just deeply concerned that your Agency is going to be 
up to the task in the Gulf Coast, where we have so many real 
victims of these disasters. We want to make sure we get them 
all the support that they need. But given the abuse that 
occurred in previous hurricanes, what specifically can you do 
to make sure that we don't see that same kind of recurrence of 
events that we saw in these previous situations?
    Mr. Skinner. Thank you, Congressman. First, let me assure 
you, we are up to the task. We also are working very, very 
closely with the other IGs in the community to provide 
oversight of their respective programs.
    For example, SBA IG is looking at the SBA loan programs. 
The Department of Labor IG is looking at the unemployment 
programs, or the grants that were made to the States for 
unemployment. The Department of Agriculture is looking at the 
food stamp distribution program for the disaster victims.
    With regards to providing oversight in making references to 
what we found in Florida and Detroit, one of the lessons 
learned, I think, from the Florida hurricanes, is the fact 
that--in other words, we are not experiencing the same problems 
in Florida that we observed last year. That is, FEMA was very 
careful to go to the individual counties and do preliminary 
damage assessments for those outlying counties to ensure that 
the damage was sufficient to justify a declaration. That was 
not always done after the Florida disasters, and as a result, 
some marginal counties may have been declared unnecessarily.
    In this case here, it is pretty obvious, those counties 
that have both PA and IA declarations are most certainly in 
need. Those outlying counties, FEMA has done preliminary damage 
assessments. I just returned from there last night myself, in 
visiting Alabama, Mississippi and Louisiana, and looked at 
those counties that are on the marginal line. Many have not 
been declared, not every county in the State has been declared 
a disaster in Mississippi and Alabama, for example. So that in 
itself will help solve some of the problems.
    Now we just need to focus on those that were declared, 
those counties that are in need of assistance. Unfortunately, 
there are going to be people in those counties and people 
outside those counties that are going to come in and try to 
take advantage of the situation. We are working very closely 
with the Department of Justice and their task force.
    Mr. Dent. How quickly can you recognize this type of fraud 
when it occurs, and how quickly can FEMA de-obligate those 
funds if you do witness this fraud?
    Mr. Skinner. Our attempt here is preventive. We are trying 
to get to them before the check is actually delivered. That is 
what we have done to date. As a matter of fact, we have met 
many of these culprits, we have made several arrests already. 
We just met them at the post office when they come to collect 
their check.
    So we try to do it up front. We have a lot of partners that 
are helping us do that. One of the biggest partners is the post 
office. For example, in Louisiana, someone applied for, a 
couple applied as Mr. and Mrs. John and Jane Doe. The postal 
employee that delivers the mail recognized that John Doe did 
not live there, nor was there any damage to their home, nor did 
they need disaster assistance. They immediately contacted the 
task force, we investigated and made an arrest.
    So we are trying to catch them right up front. We have many 
partners that are helping us with this. We are doing it through 
hot line complaints as well. We are advertising our hot line 
number down there through public service announcements, on TV, 
radio and the local governments there.
    Mr. Dent. Thank you. I would like to ask Mr. Burris a quick 
question, just keeping in mind those difficulties from Florida 
last year, and even in Pennsylvania, we had Hurricane Ivan. I 
still have a lot of problems up there with people getting 
reimbursed, and of course our situation was much more limited 
than what we have seen here in the Gulf Coast.
    Do you feel that FEMA recovery division has the current 
capacity to handle the recovery of such a large scale disaster? 
How much additional staffing are you going to require and 
resources to ensure timely action to help those people who have 
been the victims of this terrible disaster in the Gulf Coast?
    Mr. Burris. We definitely require additional resources to 
handle the magnitude of what has happened in the Gulf Coast. We 
are doing that through the Stafford Act hiring authorities that 
allow us to bring on, into the Federal Government or through 
contracting, employees that are charged directly to a disaster. 
They are on a term limited basis.
    Mr. Dent. Okay, no further questions.
    Mr. Shuster. The gentleman's time has expired.
    I yield five minutes to Mr. Taylor for questions.
    Mr. Taylor. Mr. Skinner, I found your talks about trying to 
cut down on the fraud interesting in light of a case that I 
know to be true, and that is that my daughter and son-in-law, 
because of bad communications, both filed for a FEMA claim. 
They happen to have been residing in New Orleans.
    Both checks come in, my son-in-law calls FEMA and says, 
look, you all screwed up, we screwed up, we ordered two checks, 
we are only due one, what do we do with it? He said the folks 
at FEMA started laughing on the phone and said, this is the 
first person to ever call in and do that. So I am hearing that 
you are going after fraud, but they basically said, do what you 
feel like with it. I am quoting my son-in-law, there is no 
reason for him, he knows what my job is, there is no reason for 
him to try to pull a fast one.
    But that is certainly contrary to the tone of what you are 
saying today. So I would hope that you would instruct your 
folks that when people realize they have made an honest mistake 
and try to do the honest thing to reward them for that and say 
yes, this is the process that you do. I found it interesting, 
in one of the publications I read just yesterday that now you 
are going after Floridians about a year after the fact who got 
too much money. I think it is much more important to catch it 
up front, right?
    Mr. Skinner. Yes.
    Mr. Taylor. Than a year later.
    Second thing, again, I am hearing a lot of hearsay about 
the abuse of the system. So I would like a clarification. In 
Mississippi we have an excellent State law preventing conflicts 
of interest. It is just airtight. You can't even be a member of 
a board that does business with yourself, you can't exclude 
yourself from the vote, you just can't be on a board that does 
business.
    What are the rules as far as FEMA? Because I am hearing 
some disturbing accusations. Could a county or a State elected 
official in one of the three affected States turn around and 
start a business to do business with FEMA, either in disaster 
cleanup, a site for waste disposal, since that seems to be a 
hot ticket, or any of these other things? What are your rules, 
and does that need to be approached, since to a certain extent, 
particularly if you are dealing directly with a county, that 
person is in a position that they might or may not have been 
steering business his own way?
    Mr. Skinner. First of all, I will just make a comment on 
the remark on the telephone call. Those people do not work for 
the OIG. We are embedding people up at the NPSI, the place that 
receives those calls, so that we can monitor their activities 
as well.
    Mr. Taylor. Well, you need to monitor them a bit more 
closely.
    Mr. Skinner. Yes. I really encourage you, that remark was 
definitely inappropriate, and had we been made aware of it, we 
would have taken action.
    Mr. Taylor. It is even worse, she actually called for her 
supervisor, and the supervisor started laughing.
    Mr. Skinner. That is very, very inappropriate. We are going 
to embed people up there in that operation this week, as well 
as at the payment center in Mount Weather to track that whole 
process and learn more.
    In response to your second question, I think Ken might be 
more equipped to answer this, but from a prosecution 
standpoint, we rely on the laws of the State. I know 
Mississippi has very tight conflict of interest laws. Louisiana 
has laws that allow you to invest up to, I think it is 4.999 
percent without disclosure. So if someone does have a vested 
interest in a company that is doing business, that is totally 
legal, it is not prosecutable.
    However, if that individual provides any information that 
may mislead or have an influence, adverse influence on the 
decision to approve a contract or a financial relationship, 
then we can factor that in for prosecution. So there is no 
Federal law, per se, that will override any of the State laws.
    Mr. Taylor. So you are using your authority to enforce 
State laws?
    Mr. Skinner. Yes. In essence. We do have to, there is no 
Federal law that would override the State laws in that regard.
    Mr. Taylor. Since the majority of the work is going to take 
place in the three coastal counties and that average is 
anywhere from about 150 miles from the State capital of 
Jackson, I am curious why you are putting your Inspector 
General 150 miles away from 90 percent of the work.
    Mr. Skinner. No, we are not.
    Mr. Taylor. I heard you say Jackson.
    Mr. Skinner. Yes. We have an operation there, because that 
is where the joint field office is. That is where all of the 
applications are screened, that is where the accounting is 
done, that is where the contracting is done and the awards are 
made.
    We have a sub-office as we speak in Biloxi, and we are 
working out of Biloxi as well. Our biggest problem right now is 
housing, not only a place to sleep, but a place to secure our 
work papers and our documents as we go through our 
investigations and audits. But we are in fact in Biloxi itself.
    Mr. Taylor. Mr. Burris, some of the best work that I saw 
done in the aftermath of the storm was performed by the Army 
National Guard and the Navy Seabees. One of the things they 
just took upon themselves is, we are going to make thing right, 
we are going to open up these streets and we will ask for 
permission later.
    In the immediate aftermath of the storm, that really was 
the right attitude to take, it was the only attitude to take. I 
was there at ground zero.
    One of the things we are running into now is we still have 
desperate need for housing. At this point, people would welcome 
a tent to live in as opposed to a little dome shelter that may 
or may not have been looted from the local Wal-Mart or K-Mart. 
I am being told that the Navy construction battalion has been 
stopped on at least one occasion from erecting large tents to 
provide temporary housing because a local contractor objected.
    It would seem to me that it would be in the best interests 
of our Nation to have some sort of a 60 to 90 day window where 
the military can just step in and do what needs to be done 
without a contractor being able to object. These are desperate 
times. I am of the opinion this is not the last horrible 
hurricane or natural disaster this Nation is ever going to see 
and there is certainly the threat of terrorism out there.
    If the military has the capability, I understand that at 
some point, when life gets back to normal, the contractors 
ought to be able to say, hey, I can do that job. But for the 
foreseeable future, 30 days after the storm, 60 days after the 
storm, even 90 days after a storm, when you have people who are 
living in their cars, living in a pup tent in what used to be 
their front yard, and the military has the availability of 
building tents, I would sure hope FEMA would rethink that whole 
law that allows just one contractor to stop this from 
happening. I would like to hear your thoughts on that.
    And apparently, this apparently is happening as we speak 
near Pass Christian, Mississippi.
    Mr. Burris. Where again, sir?
    Mr. Taylor. Pass Christian. I guess you guys would say 
Christian.
    Mr. Burris. Yes, sir. I am not aware of that incident. I am 
aware that military commander have the ability to implement 
whatever program they deem necessary to implement for the 
health, safety and well-being of the civilian population around 
their post. I will have to check into this particular one. I 
don't see that a contractor would have the authority to tell a 
military commander no, he could not do something like that.
    Mr. Taylor. Since we are blessed to have the Seabees down 
there, and they do a lot of good works, as they are training to 
deploy. The rule traditionally has been that they could come in 
and help a county clear a field for a soccer field, even do 
some sewage treatment work, build a pier for recreational 
purposes for a city or for a county, as long as a local 
contractor did not object. That has worked pretty well during 
peace time.
    What we are finding now is that in this time of true 
emergency that still, a veto by a local contractor is still on 
the books. It is really preventing a great asset from being 
used to its fullest extent.
    The county supervisor who brought it to my attention 
happens to be in town today. Is there any chance I can get him 
with you to walk you through that?
    Mr. Burris. Yes, sir.
    Mr. Taylor. Would you get with me?
    Mr. Burris. Right after this.
    Mr. Taylor. Thank you very much. Thank you, Mr. Chairman.
    Mr. Burris. Could I answer a question regarding the 
integrity of our contracting?
    Mr. Shuster. Sure.
    Mr. Burris. We do applicant contract, applicant briefings 
with local government and State government to have everyone 
that gets Federal dollars to understand what the requirements 
are to use those Federal dollars in contracting. This, because 
we have been delayed in our public works projects, we worked 
with the IG's office to put together a program to be more 
proactive in that. Instead of doing it during the applicant 
briefings, we worked with our JFOs in each State to get that on 
the ground up front, so that the local officials, who are 
managing Federal funds, know exactly what the requirements for 
the use of Federal funds are and the penalties for violating 
the Procurement Integrity Act.
    Mr. Shuster. Thank you, Mr. Burris. I certainly would like 
to hear back as to if we were able to resolve that problem. I 
appreciate that.
    Next I would like to recognize Mrs. Kelly.
    Mrs. Kelly. Thank you, Mr. Chairman.
    I have to say that, being from New York, we experienced a 
man-made disaster on 9/11/01. FEMA had a great response. They 
were there for us and they worked hard. I really do thank FEMA. 
There are still some loose ends. We had a couple of hurricanes 
that hit my district, forest fires and storms, and FEMA has 
been in and helped my district a great deal and I do thank you.
    But five years later, Mr. Burris, I represent a district 
that holds Indian Point Nuclear Facilities, power plants that 
are just north of New York City. The soundness of the emergency 
preparedness plans for the area surrounding the plant has 
always been a top level concern in my district. I am sorry to 
say that the confidence in the plans is not nearly as strong as 
it should be, and with good reason.
    Governor Pataki commissioned a report that found a lot of 
problems with the emergency preparedness in 2003 and now in the 
aftermath of Katrina, there are some very serious concerns in 
my district. In some towns, officials have gone so far as to 
begin mapping escape routes, because we all saw the traffic 
jams coming out of Louisiana. And sir, we have a lot of people 
living in that area within very close proximity, a ten mile 
proximity to that plant.
    Due to those inadequacies that were exposed by Katrina, I 
want to know if we can expect FEMA to conduct another review of 
the evacuation plan for the area surrounding Indian Point.
    Mr. Burris. I will take your concerns back to our REP 
program, our radiological emergency preparedness program, and 
to the director to bring that to their attention.
    Mrs. Kelly. I wish you would, sir.
    Mr. Burris. I will do that.
    Mrs. Kelly. Because earlier this month, the DHS, the 
Nuclear Regulatory Commission, FEMA and the FBI conducted what 
they considered a comprehensive review of Indian Point. They 
went out publicly and told our local officials and other people 
there about the conditions of the plant. They painted a very 
rosy picture of safety and security.
    The following week we found out that these same people had 
neglected to mention a leak in the spent fuel pool. It was a 
radioactive leak. And it was a fact that they just neglected to 
share, after going out and painting this rosy picture.
    Mr. Burris, I don't think that we can expect people to have 
confidence in the Federal Government's ability to evacuate them 
in the event of any kind of an emergency, let alone a 
radiologic emergency which is what we are worried about here. 
If you can't be counted on to share some basic information on 
safety levels at this plant, it has been five years and we 
still don't have an adequate plan.
    After what happened in Louisiana and Mississippi, we know 
we need your help. But we need honest help, sir. We need 
something that tells us the real facts.
    I am also concerned that Indian Point currently does not 
maintain a backup electricity source for their independent, 
that is independent, for their energy grid and its emergency 
sirens. FEMA met with the county officials on July 6th, and in 
that meeting they agreed with county officials that there was 
cause for concern after they evaluated the siren notification 
system.
    FEMA officials at that meeting agreed to issue a formal 
written report to the NRC on the findings of their evaluation. 
But in fact, they have said that report would be to us by the 
end of September. It is now October. No county, none of the 
five counties that I represent, has received anything. I would 
like to know what the status of that report is.
    Now, I know you did not come here to talk about Indian 
Point, sir, and I understand you are not able, maybe, to answer 
my questions. That doesn't change the fact that I have a lot of 
constituents who are demanding answers. We are worried. We live 
there. The nuclear plant is within 50 miles of New York City. 
What I want to do by my questions to you right now is make my 
colleagues aware of some of the FEMA problems that we, who have 
experienced a man-made disaster, have found.
    There is a delay. The record needs to be better for 
Louisiana and Mississippi and definitely and definitely needs 
to be cleaned up in New York with regard to your responding to 
these emergencies. And sir, I would caution you, please do not 
stand again and give us a rosy picture of evacuation plans and 
how this plant is running unless it is absolutely true.
    Thank you.
    Mr. Shuster. Thank you. I would like to now yield five 
minutes to Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. Skinner, are you satisfied that there is true 
accountability for the money and transparency in dealing with 
the contracts and the money?
    Mr. Skinner. No, I think there most certainly is room for 
improvement. There is no question. This is a very large 
disaster. There is a lot of activity spread across four to five 
States. Actually even 48 States, when you look at the 
dispersion of the evacuees. We are working on that, that is 
what our job is, to review how well we are accounting for the 
funds, how well we are contracting and how well we are 
providing oversight in ensuring that we receive the products 
and goods that we buy.
    I am very cautions or concerned about the amount of 
monitoring we are doing right now, after we award these grants 
to the States for debris removal, as an example, and for that 
matter, how well we are monitoring the contracts that we have 
awarded to ensure that we are getting our money's worth. As 
time goes on, I am sure that will improve. But at this point in 
time, I think that there is room for improvement.
    Ms. Johnson. Thank you. I am from Dallas, Texas, and we 
have up in the thousands of people from the more flood-prone 
area of Louisiana, primarily. No money has flowed in our 
direction. But it is needed. There are so many evacuees that 
need to placed in housing. There are so many organizations that 
need to find out how to be reimbursed for some of the things 
that they have done. Because it has basically been furnished by 
public service of non-profit organizations and money that the 
local officials have raised. So I would appreciate some 
attention to that.
    Mr. Burris, when I was in Louisiana the other day, I asked 
a gentleman who has a contract for removing debris if he had 
hired any local people. He is from Georgia. He said, a few. 
What kind of outreach effort is in place to attempt to hire 
people that are from New Orleans, somewhere in those areas 
where they could get the benefit of making some kind of wage? 
There is no income there for the city or the State or anything. 
Unless some of these people get jobs and some of the local 
people get contracts, there won't be any. It is going to take a 
long time to get through where they are.
    But I want to know what kind of outreach efforts are going 
on to try to get some of those people back into those jobs.
    Mr. Burris. We have outreach efforts to do local hiring 
when we hire, first of all, let me talk about the Federal 
Government, when we hire we make it a practice to hire locally 
there, to ensure that the impacted area has the opportunity to 
have those jobs. Secondly, in our contracting process, the 
Stafford Act says to the extent possible that the contractors 
will use local contracting and local hires to do that.
    Our contracts also carry the clauses that 40 percent of the 
contracts have to go to small and disadvantaged businesses, and 
we monitor that very closely. I feel comfortable that we are 
meeting our obligation to utilize local contracting when and 
wherever possible.
    Ms. Johnson. Well, according to the newspaper and what 
people are saying, 90 percent of the contracts have gone to 
large firms outside the State. The biggest complaints that I 
have are small businesses and some of the local people can't 
even get in touch with anyone to see whether they can do some 
subcontracting or something. What I would like to do is have 
you give me a name that I could contact directly to assist.
    Mr. Burris. I will do that. We are actually having a--
    Ms. Johnson. Where I can get through. Lines are busy all 
the time. But I really would like a number where there will be 
an answer.
    Mr. Burris. I will do that. We are actually hosting 
tomorrow a small contracting seminar in New Orleans, in the 
area, in Louisiana, to assist small contractors. So we are 
going to be replicating that around the different States where 
our senior procurement officials are on the ground with the 
Small Business Administration, hosting these seminars so people 
understand that. That kicks off tomorrow.
    Ms. Johnson. How have you posted it?
    Mr. Burris. It has been, to my knowledge, distributed 
through our joint field offices in Louisiana to where the 
seminar is being hosted.
    Ms. Johnson. Most of those people have been displaced. So 
some of them, a whole lot of them are in Texas. I have not seen 
any opportunity listed for any small business to try to get any 
business. They are all calling my office. It is jamming our 
phones and we need some help and relief.
    Mr. Burris. I will make sure you get the information.
    Ms. Johnson. Thank you. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Ms. Johnson.
    I now want to yield five minutes to Mr. Bachus for 
questions.
    Mr. Bachus. Thank you.
    Mr. Skinner, you have 90 inspectors inspecting for fraud 
and abuse, is that correct?
    Mr. Skinner. We had about, when we transferred FEMA's IG 
office to the DHS IG, we transferred approximately 200 
positions from FEMA, approximately, I would believe, between 90 
and 110 that had extensive disaster response and recovery audit 
investigative capability.
    Mr. Bachus. Yes. That is what I have been supplied with, a 
figure of about 90 some odd inspectors.
    Mr. Skinner. Yes, that is about correct.
    Mr. Bachus. What type of fraud and abuse are they finding?
    Mr. Skinner. Right now, we are focusing on two things. One 
is contractor fraud. The big contracts right now that we are 
looking at deal with debris removal. I am not at liberty to 
talk about where we are on those investigations, but we do have 
ongoing investigations of debris removal contractors.
    The second area that we are focusing on right now deals 
with the individual assistance and temporary housing program. 
The way this program is evolving, it started with the response, 
and that was a big contracting frenzy, so to speak, for debris 
removal. We then shifted into, within a week or so, into the 
individual assistance temporary housing program. So we are 
investigating that as well.
    We have not started anything on the reconstruction, of 
course, because that has not started. But we are doing a lot of 
pre-applicant briefings, alerting them to what they do not want 
to do to get themselves into trouble. We are finding the 
individual assistance fraud, the fraudulent applications, we 
have already made eight arrests within the past week. We have 
at least 21 additional cases ongoing in Louisiana. We have 
several ongoing in Mississippi. There will be many, many 
arrests coming in the very next few days and weeks.
    Mr. Bachus. Is there a 1-800 number where people can report 
fraud and abuse, or what they consider mismanagement?
    Mr. Skinner. Yes, and I did not bring it with me. But we 
publish what we have done. Since there are 26 IGs involved here 
and they all have some oversight responsibility, SBA for loans, 
Labor for unemployment, what we have done is collectively come 
together and we have created one hurricane fraud hot line 
number.
    Mr. Bachus. Are you making an attempt with the local media 
to put that number out?
    Mr. Skinner. Yes, we have. I have done public service 
announcements for the radio, which have been satellited up, I 
believe this week. Tomorrow, we have done television public 
service announcements. Those will be distributed tomorrow to 
the local media in not just the four or five States that were 
affected, but the surrounding States as well, because many of 
the culprits reside in these outlying areas.
    Mr. Bachus. I know sometimes you contract, but more often 
than not it is the local government that contracts for debris 
removal and you reimburse those. Do you review those contracts 
also?
    Mr. Skinner. Yes, we are.
    Mr. Bachus. Your inspector, when he recognizes what he 
believes is waste or fraud in a contract, once you recognize 
that, how quickly can you respond to that?
    Mr. Skinner. Within hours. Once we open a case, what we 
want to do is develop certain facts so that we know that there 
is in fact a crime being committed. Within hours of opening 
that case, we immediately start coordinating with the local 
U.S. attorney to get that on their docket, so we can get 
prosecution.
    Mr. Bachus. And those have happened?
    Mr. Skinner. Oh, yes. All the cases I just referred to, the 
8 arrests we have already made, the 21 investigations that are 
ongoing.
    Mr. Bachus. With contractors?
    Mr. Skinner. No, these are mostly individual assistance 
right now.
    Mr. Bachus. Let me deal with the contract. Debris removal 
is predictable, I think I have read in the press where a 
hurricane generates as much as seven years of municipal waste 
within a few hours. So you know you are always going to have 
debris removal.
    Now, those contracts, do you have a standard where you say, 
we are going to pay $10 a cubic yard or $15 a cubic yard?
    Mr. Skinner. That is done competitively. Yes, in those 
cases as well, before we even open a case, we go to the U.S. 
Attorney to ensure that it can be prosecuted. As far as the 
rates, they vary by region. They are let competitively, they 
can be anywhere from $6 per cubic yard in remote areas of 
Alabama to as much as $25 a cubic yard down in New Orleans.
    Mr. Bachus. It is my understanding that a lot of them 
weren't let competitively right after the storm, is that 
correct?
    Mr. Skinner. Yes, there were many sole source let. That is 
one of the things we are looking at, as to why was it let sole 
source. I think there is an explanation for that. Then the 
second question is, why did you choose this contractor over 
contractor B. The third question, and a very important question 
is, is the pricing fair.
    Mr. Bachus. Is there a guideline for local governments in 
letting, say, you always know there is going to be debris 
removal. Is there may be a one or two page guideline saying, 
this is what we want you to do?
    Mr. Skinner. I believe there is.
    Mr. Bachus. Could I get a copy of that?
    Mr. Skinner. Absolutely.
    Mr. Bachus. You are looking at these contracts to see 
whether that was done?
    Mr. Skinner. Yes, we are.
    Mr. Bachus. Do you de-obligate funds when you find it was 
not done?
    Mr. Skinner. Yes, we do. If the contract is active, we will 
immediately go to the contracting officer and make a 
recommendation, there his something amiss here, freeze the 
contract, freeze payment, stop work. If it is determined that 
that contract should not proceed, yes, FEMA will de-obligate. 
But in addition to that, if they in fact did so something 
irregular or improper or illegal, we either go after those 
monies through the courts or we will make an administrative 
recommendation to FEMA that they go out administratively.
    Mr. Bachus. I have one more question. The special needs 
shelter that the City of New Orleans emergency plan set up at 
the Superdome, it said it was for elderly and sick patients. It 
instructed them to bring five days of water and food.
    Mr. Burris, number one, was that practical for the sick and 
elderly to bring five days of water and food? Were you aware of 
that plan? What provisions did you make anticipating that, to 
bring water and food in?
    Mr. Burris. To my knowledge, the Superdome had been 
designated, like you say, as a special needs shelter for 
critical patients that needed special needs. We had an MDMS 
team deployed to the site to take care of that.
    New Orleans' decision to ask their citizens to bring five 
days--
    Mr. Bachus. Could you pull the mic a little closer?
    Mr. Burris. I said, the decision to have the citizens bring 
five days worth of food and water, that is a local decision.
    Mr. Bachus. Is it reviewable?
    Mr. Burris. Is it reviewable? I am sure every decision that 
has been made in this incident will be reviewed.
    Mr. Bachus. No, I mean is it reviewable prior to the case?
    Mr. Burris. By the Federal Government?
    Mr. Bachus. Yes.
    Mr. Burris. No.
    Mr. Bachus. Okay. Do you have the statutory authority to 
review that and say, that is not practical?
    Mr. Burris. No.
    Mr. Bachus. Okay, if you review it and you see that they 
are supposed to bring that, did you all anticipate that they 
would not bring five days of food and water?
    Mr. Burris. No, I can't say we anticipated what an 
individual's actions would be. I can say that the State of 
Louisiana requested that we provide food and water to that 
facility for 10,000 people for 3 days, of which we did on 
Sunday.
    Mr. Bachus. Oh, you did just--so the water and food were--
    Mr. Burris. On Sunday at 5:00 o'clock.
    Mr. Shuster. The gentleman's time is expired, contrary to 
the green light there. We have a malfunctioning lighting 
system. It is making clock management even more difficult.
    I know those questions that you are asking, Mr. Bachus, are 
things that we are on the Select Committee on Katrina, we are 
going through a series of those types of questions. We have not 
got to that point yet, but I know we are going to be asking 
many of those same kinds of questions.
    Mr. Bachus. That is part of the recovery and rescue 
efforts, which I thought were part of this hearing.
    Mr. Shuster. There will be more focus on those things as we 
move down the road.
    At this time, I would like to recognize the Ranking Member, 
Mr. Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman.
    I would say to the gentleman from Alabama, Mr. Bachus, in 
reviewing my notes from our Tuesday trip, I found that at 
Gulfport, Mississippi, the Corps testified or told us that 
their cost of removal includes costs within a 15 mile 
transportation radius of the site. That included all costs. But 
beyond that, it was not clear just what would be covered in 
costs.
    As to the magnitude of the problem, I recall, I wrote to 
one of the cleanup teams, said, ``We did the cleanup in New 
York City after 9/11. I can tell you, this is worse. The water 
damage makes it worse.'' Further, there were 40 million cubic 
yards of debris in Mississippi after Hurricane Andrew, I mean 
20 million after Hurricane Andrew, 40 million cubic yards 
estimated of debris after Katrina.
    Clearly, the scope, the depth of the Katrina-Rita 
disasters, to be fully appreciated, have to be observed in 
person. Mr. Chairman, you did that a couple of weeks ago, and I 
commend you for taking the time to observe first-hand. Then on 
Tuesday, with Chairman Duncan and you, Mr. Chairman, and other 
members of our committee, we toured Louisiana, Mississippi, 
Alabama in that order, had on the ground briefings, we saw from 
close-up helicopter oversight the scope, the depth, the 
magnitude, the pain of this disaster.
    But even before the disaster struck, and as Congress was 
creating the Department of Homeland Security, I cautioned, as 
did Chairman Young, against including both the Coast Guard and 
FEMA in this new Department. I argued against it in committee, 
together Mr. Young and I went to the Select Committee on 
creating the Department and argued against including FEMA. When 
the bill that came to the House floor did nonetheless include 
FEMA, I offered an amendment to strike it and restore FEMA.
    After seeing my worst fears realized on the screens of 
television coverage of the disaster, I have drafted a bill 
which I will, one I have introduced already, but it is an 
enhanced version, which I will soon introduce, to restore FEMA 
as a cabinet level independent agency with a director who 
reports directly to the President, to establish qualifications 
for that director, requiring experience in emergency management 
and response, recovery, preparedness, mitigation, acts of 
terrorism, to set a five year term for the director as we do 
for the administrator of the Federal Aviation Administration, 
the legislation that I sponsored back in the 1980s.
    To establish a deputy director who will be a liaison to the 
Department of Homeland Security to deal with terrorism issues, 
to reauthorize the pre-disaster hazard mitigation program for 
another five years. Our Committee last year reported out that 
legislation, brought it to the House floor. It passed the 
House, nothing happened in the other body.
    To allow FEMA to provide additional household repair 
assistance greater than the $5,000 cap. We heard time and again 
testimony in our review on Tuesday about this limitation and 
the problems it creates for people. To authorize FEMA to 
provide grants to State and local governments to buy emergency 
interoperable communications equipment. That was the great 
lesson of September 11th, 2001. Police couldn't communicate 
with each other, fire units couldn't communicate with each 
other, police and fire couldn't communicate with each other. 
The great lesson learned of September 11th was to have 
interoperable equipment and mobile emergency power equipment. 
FEMA didn't do that in the aftermath of September 11th and 
wasn't prepared in Katrina.
    To assure that State and local governments will take into 
account the needs of families with household pets and service 
animals, time and again we heard the stories of people who 
wouldn't leave their home because they didn't know what would 
happen to their pet, they weren't assured it would be taken 
care of. We should deal with that. People should not be forced 
to stay behind to take care of a pet.
    And restore the Davis-Bacon requirements for work being 
done in the recovery effort. We shouldn't punish people, making 
them work for less than the going wage in the area in order to 
save money. And if you are going to do that, then at least for 
heaven's sakes put a cap on the amount of profit that 
corporations can earn in servicing disasters and extend 
disaster unemployment assistance to a maximum of 52 weeks.
    Those are elements of the bill that I will be circulating 
and I ask members to take a look at it to join in sponsoring 
this legislation. I am very hopeful that our Committee will 
respond and move the legislation in an expeditious manner.
    Mr. Shuster. I thank the Ranking Member.
    Now I would like to give five minutes for questions to Mr. 
Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here with us. We appreciate 
your testimony and appreciate the hard work you are doing. I 
represent Louisiana's Seventh Congressional District. It was 
devastated by Rita, significant challenges posed by Katrina 
with evacuees. So we have been living through all of this, 
along with my colleague from Mississippi and others.
    A couple of questions. One, I have been contacted by the 
Louisiana Procurement Technical Assistance Center. They are 
part of a Federal-State partnership partnering with our local 
State university. It is a program to help businesses do 
contracting work with the Federal Government. They basically 
help businesses through the process. In my district, they are 
well underway in completing a profile of all the businesses 
that are hoping to provide work in this effort.
    So they are very concerned right now that FEMA is simply 
not utilizing this resource. Instead, other Federal employees 
and agencies have been brought into the process. It seems to be 
getting things started from scratch, as opposed to utilizing 
this resource. Do you know this to be the case, or do you know 
of contact with this entity?
    Mr. Burris. No, sir, I don't know that entity specifically. 
But we do try to leverage all local resources that we are aware 
of. We worked with the State of Louisiana to secure their 
minority business list. We distributed that minority business 
list to all of the people that were doing contracting in our 
field offices to ensure that they had access to that type of 
information. If you will give me the name one more time, I will 
take it back and make sure that we have that one as well.
    Mr. Boustany. It is the Louisiana Procurement Technical 
Assistance Center. My office can probably get you contact 
numbers, if you like.
    Mr. Burris. Thank you.
    Mr. Boustany. Does the recovery division selection and 
training of temporary hires with each disaster hinder the 
efficiency of project approval and reimbursement process? Do we 
reinvent the wheel each time with a disaster. I want to dig 
into this issue of temporary hires a little bit with you.
    Mr. Burris. I don't know that we reinvent the wheel each 
time. We keep on our rolls around 5,000 disaster assistance 
employees that we can call to provide assistance. Within that, 
they are divided up into cadres that have public works 
technical knowledge or they have individual assistance 
knowledge. They go through training at the emergency management 
institute. We provide internet training as well.
    So we try to keep this cadre up to speed. It serves us well 
during our normal disaster activities. In this particular 
disaster, we are having to move forward in hiring many more 
temporary employees than we had before, so we are having a 
challenge in bringing those employees up to speed. That is the 
reason we have our technical assistance contracts as well. We 
rely on the private sector to provide that type of assistance.
    Mr. Boustany. As I have traveled around my district, I have 
seen a large degree of variation in the capability of those 
working with FEMA, either temporary hires or permanent hires. 
Some have the ability to make decisions that communicate well, 
and in other areas we are finding deficiencies. It is creating 
problems.
    It is amazing, in some communities, everybody says, FEMA is 
doing a great job, we are very happy. I go to another community 
20 miles down the road and hear just the opposite. So I am just 
looking for ways, how can we improve this process? Do you feel 
comfortable with the training program? I understand the 
challenge you have now of trying to really ramp up with 
temporaries under difficult circumstances.
    Mr. Burris. I feel comfortable with our training programs, 
but what happens a lot in the field is that you will have an 
individual that has a particular knowledge set, whether it is a 
community relations knowledge set that is out there trying to 
assist, that gets pulled into a public works debate, in which 
they do not have that particular knowledge.
    Unfortunately sometimes instead of extracting themselves 
from those debates, they go ahead and interject what they 
believe their thoughts to be, which automatically becomes 
FEMA's position in a public works arena, made by somebody in 
the field that wasn't down there for that. So we have those 
challenges as we try to get people moved forward. Every FEMA 
employee does not have the skill sets, knowledge, skills and 
abilities over the broad range of our programs.
    Mr. Boustany. That is exactly the case I have seen. I 
talked to one FEMA employee who was part of a communication 
response team who was then put in a position of having to deal 
with some of the other issues. That was his complaint, he said, 
please pass it on to the top that we need to correct his 
problem.
    In general, I know we have talked about FEMA as being under 
DHS versus being an independent agency and so forth. Let's just 
focus on FEMA for a minute, regardless of where it sits in the 
chain. What does it need to be ready to deal with the 
challenges that we are now faced with, and future challenges of 
a similar magnitude? Because obviously we do have some 
deficiencies.
    What is it going to take? I understand money, personnel. 
But what do you see for the future with FEMA as an 
organization?
    Mr. Burris. First, I think it is going to take our 
collective wisdom to make a decision as to what type of 
response this Country wants and in what time frame do they want 
it. Once that decision has been made, then you can move forward 
to create an organization that can meet that expectation.
    Our organization was created to provide Federal assistance 
within a 72 hour time frame after an event has happened and to 
provide limited assistance in a lot of different areas. We are 
being asked to do way beyond what we were created to do in some 
forms or fashions. That in itself is the first decision, what 
is that we believe in our Country is a measure for success, and 
then we can build toward that.
    I have to say that I believe that our Agency has done 
incredible work in trying to coordinate the rescue of hundreds 
of thousands of people, the distribution of a population of 
around 2.4 million across 48 different States, provided 28 
million meals and all of that done in a 5 day time period. We 
were not created, we didn't have the assets to be what people 
want to believe is successful. I believe that to be successful, 
given how we are structured.
    If all of that effort should have taken place in a 48 hour 
time frame, instead of our 2 day time frame, then fine, then we 
have to redesign what we are doing.
    Mr. Boustany. I agree. The public expectation of what FEMA 
can and can't do was certainly out of tune with what you have 
been able to do and so forth. Do you envision a closer 
collaborative effort between FEMA and Coast Guard in the first 
response in dealing with these disasters? Coast Guard did an 
outstanding job. I think FEMA certainly, I thought, fit within 
its role. But Coast Guard has a logistical support and 
capabilities. Do you see a larger role in Coast Guard working 
in collaboration with FEMA?
    Mr. Burris. I am sure those will be discussions that we 
will get into as we evaluate all the decisions and actions that 
were taken during our response.
    Mr. Shuster. The gentleman's time has expired, but we are 
going to do an abbreviated second round here if you have 
further questions, Mr. Boustany.
    I would now like to recognize Ms. Carson.
    Ms. Carson. Thank you very much, Mr. Chairman.
    To Mr. Burris and Mr. Skinner, thank you very much for 
being here.
    I have a question that you might have answered even before 
I came. I had a disruption in terms of coming.
    Can either of you explain how the $236 million Carnival 
Cruise housing contract was awarded, and what guidelines were 
in place to ensure that this and other contracts are 
responsible, fair and in the best interests of those who were 
affected, who needed housing and the taxpayers? While we had 
three cruise ships, none were at capacity by any means. Whose 
authorization was it to secure those contracts, and whether or 
not they were bid and whether or not you bid contracts of that 
magnitude ordinarily?
    Mr. Burris. Yes, ma'am, I can speak to that. I was involved 
in that one personally. The cruise ships are part of an all-
encompassing housing situation when you have a mass displaced 
populace. That particular contract was not sole sourced. It was 
competed. We did not have what I considered the technical 
ability to procure ships, that is something that we had not 
done before. We turned to the Navy to ask for their assistance 
in doing such. They provided the procurement assistance in 
securing the contract.
    Carnival was a bidder in the contract. Originally that 
contract started out to be one that was more sole source and 
limited competition. After we put it into the Navy's hands and 
they executed a competition, the cost of those cruise ships 
came down somewhat significantly.
    The cost of keeping an individual on that cruise ship is 
$168 a day. They provide meals, they provide security. We 
closed, all the things that people think go on on a cruise ship 
are not going on on those cruise ships. There are no bars on 
those cruise ships, there is no gambling on those cruise ships. 
It is specifically for housing and feeding only.
    And they have turned out to be an effective method in which 
to do that. And they were competed, that contract was competed.
    Ms. Carson. You had other bidders for the contract, you 
say?
    Mr. Burris. Ma'am?
    Ms. Carson. You had other bidders?
    Mr. Burris. Yes, ma'am.
    Ms. Carson. For the contract?
    Mr. Burris. Yes, ma'am.
    Ms. Carson. So why did you award it to that group?
    Mr. Burris. Because they were the lowest bid for what we 
were asking for.
    Ms. Carson. No negotiation to try to get the costs down?
    Mr. Burris. Yes, ma'am. There was quite a bit of 
negotiation on that, to the extent that those contracts 
originally carried some clauses in them that wanted different 
things to happen that we would not agree to. So there was 
negotiation back and forth on those contracts.
    Ms. Carson. You canceled the contracts?
    Mr. Burris. Yes, ma'am, we can cancel the contracts at the 
convenience of the Government. All of our contracts carry that 
clause.
    Ms. Carson. Didn't Greece offer us cruise ships for free?
    Mr. Burris. Yes, ma'am, the country of Greece did offer 
cruise ships. Unfortunately, those ships could not pass the 
inspection certifications to operate within the U.S. 
territorial waters, nor could they, it was my understanding, 
they could not arrive in a timely manner had they been able to 
do so.
    Ms. Carson. Could you explain for me, I don't want to 
belabor the point, could you explain for me the difference 
between a competitive contract and a non-competitive? Is there 
a cost involved in terms of making that decision?
    Mr. Burris. Well, the non-competitive contract would be a 
sole source contract where you went to a particular company 
because they either could provide the services that you needed 
and were unique in providing those services.
    Most of them are contracts that are expedited or limited 
competition contracts, in which we get contractors from the GSA 
schedule and we do a limited contract in order to expedite the 
services. We do very few sole source contracts.
    Ms. Carson. So what happens now that you have canceled out 
the contracts? Where do the people go?
    Mr. Burris. Ma'am, we have not canceled the contract on the 
cruise ship. I thought you asked me could we. We can.
    Ms. Carson. I heard that you had done it. You did not 
cancel Carnival's contract?
    Mr. Burris. No, ma'am, I am not aware of canceling the 
contract.
    Ms. Carson. Do you intend to?
    Mr. Burris. Not at this particular point. Where they are 
being utilized, they are being utilized to house workers that 
are in areas where there is just not any housing to house them 
in. They have some evacuees on them. But right now, I believe 
while people want to characterize them as expensive and maybe 
not the appropriate thing to do, they are providing their 
purpose, which is providing a facility right there where a lot 
of this work has to happen and a methodology to house a lot of 
the people that are doing just that, as well as evacuees.
    Ms. Carson. Okay, I am going to stop here, but there is no 
rationale between if I went up and wanted a cruise, $600, if 
the Government, FEMA goes up, it is $2,000 or $4,000 per, is 
there any reason why that discrepancy occurs in terms of its 
costs?
    Mr. Burris. I am not aware of those numbers. I am aware 
that what happens is, when those cruise ships are fully 
occupied that it costs $168 per person. Now, until they reach a 
level of being fully occupied, which my understanding is it 
should have been at that level this week, then you could 
extrapolate up and down that the cost of the cruise ship would 
be $600 or $800 per person as opposed to being fully occupied 
at $168. I could see where those numbers could happen.
    Ms. Carson. So you measure the cost on the occupancy 
numbers?
    Mr. Burris. Yes, ma'am.
    Ms. Carson. Thank you, Mr. Chairman. I yield back.
    Mr. Shuster. Thank you, Ms. Carson. Mr. Blumenauer, five 
minutes for questions.
    Mr. Blumenauer. Thank you very much.
    I am interested in how we can incentivize under these 
contracts, so people will be paid for performance, not 
necessarily for volume of activity. I am curious if any of 
these contracts have provisions where we are reimbursing for 
costs, and if they have incentives for performance that are 
built in, how will they make their money? Most of their profit 
is by having superior performance. And the better they perform, 
the more money they get, as opposed to just units of work.
    Are these provisions incorporated into contracts currently? 
Are there performance indicators that are wired in?
    Mr. Burris. We have performance measures in some of our 
contracts. I can't characterize that all of our contracts have 
them in there, but we do have them in many of our contracts.
    Mr. Blumenauer. But I am saying, in terms of how people are 
paid, under how many of the contracts do people get more money 
based on performance and are penalized if they don't perform?
    Mr. Burris. I don't have an exact number of that. I could 
get that.
    Mr. Blumenauer. Mr. Chairman, this is something that I am 
personally keenly interested in, because we are going to be in 
this business for a significant period of time and everybody 
wants this to be done right. Having contracts that are written 
so that people get their costs back but then performance drives 
how much they make--
    Mr. Shuster. If the gentleman will yield for one second, 
that has been very successful the highway portion of it, both 
punitive and reward. We learned down there there is a highway 
contractor who got his project done 10 days earlier and gets a 
million dollar bonus for getting it done, so I agree with you.
    Mr. Blumenauer. I am curious about the extent to which 
these can be utilized on a widespread basis.
    My second question deals with end of project reports. 
Oftentimes it seems that we really don't have good information 
about how well particular contractors performed specifically. I 
am hopeful, Mr. Chairman, our Committee might encourage or in 
fact advance legislation so that part of what we are paying for 
is an actual report, so it is not something that is 
shortchanged or is an after-thought, but that there is an end 
of project report that is given to FEMA, that is given to 
Congress, that is given to the actors and actresses on the 
ground.
    I wondered, Mr. Skinner, if you could comment on an end of 
project report mechanisms I think you know where I am going on 
this: the way that they are being applied now or changes that 
we need to make so that we have good information about who is 
doing what, so that we can be informed for the next round of 
activities.
    Mr. Skinner. To my knowledge, I am not aware of us doing 
after-action reports on the performance of our contractors. But 
that is most certainly a very good idea, especially those 
contractors that we know that we are going to have a continuing 
relationship with. Not only would it help FEMA, it would help 
others that may want to use these particular contractors for 
similar work outside the disaster response area. That is 
something that I would probably have to give a lot of thought 
to as to how you would go about doing that so it is fair, and 
also so it is recorded for the record, not just for FEMA use 
but for Government use.
    Mr. Blumenauer. Mr. Skinner, if it would be possible, I 
appreciate you don't have everything on top of your head and 
you are dealing with a wide range of concerns here from the 
Committee, but if it would be possible to do a little 
examination to find out if there are after-action or end of 
project reports. I am interested if there are any that have 
been incorporated. I would hope that they would and if not, 
that is good to know.
    Mr. Skinner. I will certainly look into that.
    Mr. Blumenauer. And Mr. Chairman, if it is possible to work 
to find a way that the Committee can start offering up advice 
to our friends, both in the Administration and other 
appropriate committees, if we think it is a good idea and we 
know what is going on with performance from various 
contractors, we see what works and what does not, and people 
have a track record.
    One of the concerns I will say is not with FEMA and 
Katrina, but a problem with the Federal Government having a 
short memory in terms of who performs and who does not. 
Periodically we get people back in the mix who did not do a 
stellar job. Institutionalizing this sort of information and 
feedback seems to me something that would be valuable for us to 
advance.
    Mr. Shuster. I agree in your assessment. In the business 
world, as the saying goes, that which gets measured gets done. 
That is what you are talking about, what is the performance, 
let's measure it and invite those people back to do business 
again with the Government.
    That is what is happening down in New Orleans. There was a 
firm from Tennessee that did such a great job and came in under 
budget on the contract bid that they have been asked to come 
back again. Those are the kinds of things, those are the kinds 
of companies we need to be engaging in these types of projects. 
So I agree with you and look forward to working with you on 
that.
    Mr. Blumenauer. Thank you.
    Mr. Shuster. There are several members that want to go for 
another round of questions. We are going to do two minutes of 
questions. I am going to have a swift gavel. We have other 
folks here that have traveled up from the Gulf Coast to testify 
here today, so we are going to go with another round of 
questions.
    I want to start first with a question to Mr. Burris. On the 
Corps and the cadre of on-call reserve employees and the 
disaster assistance employees, are we utilizing those folks? I 
met with the former FEMA, in the last Administration, who led 
me to believe he didn't think they were being utilized to their 
full capacity. I wonder if you could comment on that.
    Mr. Burris. Eighty percent of our cadre is deployed into 
the field.
    Mr. Shuster. They are? Eighty percent of Corps or both?
    Mr. Burris. All of them. They are all Stafford Act 
employees. Within the Stafford Act, you have Corps employees, 
DAEs, disaster term hires, there are many different 
classifications under the Stafford Act. We have employed many 
of our employees down there from all categories. I am sure that 
the Representative's problem with that REP report not being 
back is that our REP employees are in the field as well.
    Mr. Shuster. What employees?
    Mr. Burris. REP, radiological emergency preparedness 
employees. This is an all hands on deck disaster for us.
    Mr. Shuster. What are those numbers of the Corps and the 
Rep and the DAE--
    Mr. Burris. We have approximately 800 Corps employees and 
around 4,000 or so DAEs on our rolls. That has been greatly 
expanded at this point that we have around 10,000 currently 
that have been hired, all total, combination against this 
disaster.
    Mr. Shuster. For Katrina?
    Mr. Burris. Yes.
    Mr. Shuster. How does that compare with pre-9/11/01? Do we 
have less people overall? Do we have more?
    Mr. Burris. There is a cap on the number of cadres, 
employees you can have. We have not exceeded that cap in years.
    Mr. Shuster. Is that something you think we ought to 
increase, that cap? These are part-time folks, right?
    Mr. Burris. Yes, but it costs money to have them on the 
rolls. You have to pay the National Finance Center to keep 
their employee records, whether they are deployed or not. There 
is a certain amount of dollars that goes to per employee, 
whether they ever deployed. That is the reason for the cap.
    Mr. Shuster. Thank you. I now yield to Ms. Norton two 
minutes.
    Ms. Norton. Mr. Chairman, I ask unanimous consent that all 
members of this Committee have an opportunity to submit 
additional questions for the record.
    Mr. Shuster. Without objection, so ordered.
    Ms. Norton. And I hope that will not be included in my 
time.
    Mr. Burris, you know that the main problem facing the 
Mississippi towns and Louisiana is to get a tax base back. I 
learned that the usual low interest loans that many small 
businesses can't afford to take because they don't want and 
can't absorb more debt was not all that was available after 9/
11 in New York, that there were some small business grants to 
small business.
    Will small business grants be available to small businesses 
in the Gulf region?
    Mr. Burris. Through FEMA or through the Small Business 
Administration? I don't know the Small Business 
Administration's programs.
    Ms. Norton. You don't know whether they--a member from New 
York informed me that the grants were available. I don't know 
through whom. You do not know if grants were made in New York 
after 9/11 as opposed to the usual FEMA low-interest loans? 
That is why I asked the question.
    Mr. Burris. I am not aware.
    Ms. Norton. Okay, let me go on. If you are not aware, this 
is very important, it seems to me, for the Committee to bear in 
mind.
    Two, I believe it was you, Mr. Burris, that mentioned 
something called specialized housing assistance. Specialized 
housing assistance for evacuees. I would like to know what that 
entails. We have seen very troubling reports of these trailer 
parks. In good faith, you put trailer parks up. And you are 
doing it again. I need to know who polices these trailer parks. 
Why is it that some communities don't even want them because of 
the experience in Florida and elsewhere?
    Mr. Burris. The policing and services are the 
responsibility of the local government, for which we reimburse. 
There is--
    Ms. Norton. Would that include hiring extra police, if 
necessary, to make sure that the problems that you have had in 
trailer parks in Florida and elsewhere do not arise again?
    Mr. Burris. That would be correct, yes, ma'am.
    Ms. Norton. Let me ask you about a very interesting 
proposal of the President for homestead, the old homestead 
notion, where in order to draw back residents and to promote 
ownership and entrepreneurship. As I heard him, he said, 
Federal land would be available. So I have to ask, what land? 
Are we talking about land in New Orleans or Mississippi or 
Alabama? Are we talking only about Federal land? Are we talking 
about the Federal Government buying land and then homesteading 
it out to residents of Alabama, Mississippi and Louisiana?
    Mr. Burris. I am not aware of that program.
    Ms. Norton. Would you respond to the questions I have just 
asked by written response, then? We need to know what may be 
possible here.
    Mr. Burris. Yes, ma'am.
    Ms. Norton. One final--yes, I'm sorry?
    Mr. Burris. Yes, ma'am.
    Ms. Norton. One final question. It seems unlikely that 
anybody is going to rebuild without insurance, near or not so 
near to where the flooding and hurricane took place. I am not 
sure whether most of these people were included in the National 
Flood Insurance Program, and what FEMA is doing to facilitate 
the insurance contact with victims. Could you tell us something 
about that?
    Mr. Burris. Yes. We are working to expedite the insurance 
claims process and the flood insurance program. Our flood 
insurance administrator has met with all of our underwriting 
companies that do that to ensure that these, that we move 
forward.
    Ms. Norton. Is anybody paying claims, Mr. Burris?
    Mr. Burris. Are we paying them?
    Ms. Norton. Is anybody paying claims?
    Mr. Burris. Yes. We are paying claims on a daily basis. To 
my knowledge, we have already paid, let's see, 178,000 claims 
have been paid for a total of $172 million.
    Ms. Norton. In what jurisdictions?
    Mr. Burris. That is in all, for Hurricane Katrina.
    Ms. Norton. Would you please get that information to the 
Chairman so we can know in what jurisdictions insurance claims 
have been paid.
    Mr. Shuster. The gentlelady's time has expired, and I know 
that is a big problem. I know we talked about that in 
Mississippi. There are some hold-ups down there with insurance. 
That is going to be a huge question as we move down the road, 
how we address that problem.
    With that, I yield, Mr. Bachus is up, two minutes, Mr. 
Bachus.
    Mr. Bachus. Thank you. The President has proposed a 5,000 
individual recovery account for child care and job training. 
When are we going to receive the legislative proposal on this?
    Mr. Burris. We haven't received the language on the bill 
yet. But we will take that back and I will make sure we forward 
that as soon as we can.
    Mr. Bachus. Because it will require legislation, I guess, 
under the Stafford Act.
    Mr. Burris. That is correct.
    Mr. Bachus. And also the new housing plan for disaster 
victims, it is my understanding that may require legislation. I 
am also on Financial Services. I guess my question there, will 
you be requesting legislative changes for that?
    Mr. Burris. We are evaluating legislative changes 
currently.
    Mr. Bachus. Okay. There is a cruise ship, the Holiday, in 
Mobile. It was part of our cruise ship industry that brought in 
probably 2,000 tourists a week. It was an important source of 
revenue. As you know, Mobile was flooded during the hurricane 
and incurred a great deal of cost.
    Before you all contracted to pull that ship out of Mobile, 
which did create tremendous hardships, it is actually still in 
Mobile, but it is not doing cruise business because it is 
waiting on the docks to be repaired in Gulfport. But it is tied 
up for the next six months out of service to the cruise 
industry.
    Did you all create with the local folks back in Mobile 
about the impact that would have on their local economy?
    Mr. Burris. No, sir.
    Mr. Bachus. Do you think that in the future it would be 
wise to consult with the local authorities before you pull that 
type of cruise ship out? Was that factored into your equation?
    Mr. Burris. That wasn't factored into our decision, no, 
sir.
    Mr. Bachus. Are you aware, have you heard complaints that 
it is causing a financial hardship?
    Mr. Burris. Yes, sir, I have heard complaints to that 
effect.
    Mr. Bachus. Is there any consideration, since that ship is 
not being used, and may not be used, is there any consideration 
for releasing it back?
    Mr. Burris. To my knowledge, that ship is being used and--
    Mr. Bachus. Presently, there are less than 300 people on 
it. It is a ship for 1,500.
    Mr. Burris. I will check into it. But again, the 
information I have is it is being used.
    Mr. Bachus. If the city could come up with better housing 
for those 300 people that may be in it, would you at least 
review that and consider it?
    Mr. Burris. Yes, sir.
    Mr. Bachus. Thank you.
    The cell phones went out right after this hurricane. Of 
course, the internet did, and radio communications. In the 
future, have you all made any changes in your recovery program 
or your relief program to account for the communications system 
going down?
    Mr. Burris. In our recovery program, we provide disaster 
recovery centers. We try to put them out into areas that 
utilize our communications system, which is satellite based and 
powered under its own power. Part of the communications problem 
at the local level is that that type of technology is not down 
at the local level, the kind of Federal technology that we 
utilize.
    So we try to make it easily available to access 
communications through the DRCs.
    Mr. Bachus. I understand. I guess what I am saying, the 
whole communications system went down, cell phones and 
everything. Are you all factoring that into future events of 
this nature?
    Mr. Burris. We are factoring it into future planning for 
the purposes of emergency communications, yes, sir.
    Mr. Bachus. You are aware of all the reports of the 
fundamental breakdown of communication.
    Mr. Burris. Yes, sir.
    Mr. Shuster. The gentleman's time has expired. Mr. Burris, 
the question on those cruise ships, what I have been reading 
us, it is a pretty good deal if you have full capacity.
    Mr. Burris. If it is full capacity, yes, sir.
    Mr. Bachus. But people decided they didn't want to stay on 
a cruise ship for that long.
    Mr. Burris. There have been several different--you can't 
just--in the Texas incident originally, early on, people didn't 
want to get on it, rightfully so. They had been evacuated and 
they were afraid they were going to lose their spot in the 
shelter if they had gotten on. Since that time, we have 
completely reevaluated how we use those. We let those ships, a 
couple of those ships, we said, okay, this city, you can use it 
and you direct all that.
    It is now being directed at the Federal level as to who 
gets to use those cruise ships, not at the local level. I feel 
comfortable we will be at capacity if we are not there already 
this week.
    Mr. Bachus. As of last week, there were, actually I was 
down there on Tuesday. As of Tuesday, it was less than a fifth 
occupied.
    Mr. Burris. The problem with that particular cruise ship is 
that ship is supposed to be over in the Mississippi area--
    Mr. Bachus. Gulfport.
    Mr. Burris. Right. They are trying to dredge the canals to 
get it into the port. We have been trying to get Mississippi 
residents to come over and get on the ship. We have done a 
little bit of that and--
    Mr. Bachus. No, no, no. I guess you are missing my point. I 
understand all that, and really it is going to be months before 
it can be moved because of the dredging and the port facilities 
getting ready, or weeks anyway. But what I guess I am saying, 
before it was taken out of line, was there any consideration 
for letting it continue to operate at Mobile? In fact, that is 
the main source of their airport, because of that. Their main 
traffic in and out of that airport is destination traffic.
    This is actually the county in Alabama which took the 
biggest hit. And you took away its biggest source of revenue. 
And it is not being utilized. That is what I am saying. And I 
am just saying, if you could talk to these people and see if 
other arrangements could be made. What they are telling me is, 
we will go out and get a hotel, we will go out and get a motel, 
we will find better accommodations for these people, better 
accommodations at far less the price if you can get that ship 
released.
    Mr. Burris. I will have it evaluated.
    Mr. Shuster. Maybe we can get back in writing as to his 
question.
    Mr. Oberstar, two minutes for questions.
    Mr. Oberstar. Thank you, Mr. Chairman.
    Just one question. Are you familiar with the Jones Act 
waivers issued in the course of the aftermath of Katrina?
    Mr. Burris. No, sir.
    Mr. Oberstar. There were waivers from the Jones Act issued 
by the Department and approved by the White House on claim of 
requirement for capacity to move goods among U.S. ports. But 
since those waivers were issued, we have learned that there is 
substantial U.S. flag capacity to accommodate whatever goods 
and people movement may have been necessary or may still be 
necessary. I would like to have a report from FEMA on the 
causation of the Jones Act waivers and action to engage foreign 
ownership vessels in the aftermath of those waivers.
    Mr. Burris. Yes, sir.
    Mr. Shuster. Thank you, Mr. Oberstar.
    Two minutes to Mr. Blumenauer.
    Mr. Blumenauer. Thank you. And I apologize that I had a 
meeting that I could not reschedule if I am plowing ground that 
has already been covered by the Committee. I am curious if 
there is an overall plan under which the spending and the 
recovery is taking place.
    Mr. Burris. Let me characterize what I think an overall 
plan would be, I guess. We have an ESF-14, which is a long term 
recovery planning effort, that is mostly State-centric to the 
States, where we have our partners from the Commerce Department 
and other departments assist in the evaluation of when we make 
decisions on projects that will affect the economic development 
of an impacted area and how do those projects interact with 
that.
    FEMA is not in the business of economic development and 
providing grants for economic development. Our grant program is 
for the restoration of the public infrastructure. However, in 
doing that, we certainly recognize that that does have an 
impact on the future economic development of an area. And 
because of that, we have this planning group.
    Mr. Blumenauer. Mr. Chairman, part of what was interesting 
to me as I interviewed some of our senior members on the 
Appropriations Committee, to whom the $62.5 billion request 
went and flowed out, was that they made the same inquiry. They 
indicated to the best of their knowledge they were not aware of 
an overall plan under which we could see where the money was 
going, what it was actually for.
    I am interested in getting a sense from somebody if, and I 
appreciate you don't do particular economic development 
planning, that is not FEMA's job, when we are spending $10 
million an hour or more, do we have an overall plan about 
prioritization, how the money flows, what we expect to receive 
for what. I don't want to put you on the spot now, but if you 
can help us understand as soon as possible what would be the 
closest approximation to a plan that would tell us how the 
$62.5 billion has been allocated, obligated and spent, would be 
of great interest.
    Mr. Shuster. I thank the gentleman. Some of that answer I 
think came from Admiral Allen on Tuesday when he talked about 
his three priorities are housing, debris removal and assistance 
to folks. That is where the bulk of it I think is going right 
now. There are some estimates out there that debris removal 
alone could be $50 billion, $40 billion to $50 billion.
    Mr. Blumenauer. Which is why having a couple of objectives, 
important objectives that we can all agree on, does not 
translate into a plan.
    Mr. Shuster. Right.
    Mr. Blumenauer. I have had a group of people from my 
community who have gone down with a proposal to recycle 
building materials, something that I saw happen in the tsunami 
region. Two weeks after the tsunami, 20,000 people were at 
work. We have historic things in New Orleans, for example, that 
have great value that shouldn't be lost. Preserving them would 
be very labor intensive and would be part of a plan for 
recovery. If we are just going in and doing massive demolition 
and removal, for instance, there is no way to get hold of 
things like that.
    Mr. Shuster. Right. Thank you.
    Mr. Taylor.
    Mr. Taylor. Thank you, gentlemen, for sticking around. 
Three quick ones, and I am sure you are going to have to get 
back to me.
    At what point can you and will FEMA recompete the debris 
removal contracts? I do understand the need to act immediately 
after the storm to get the roads cleared. I am not busting your 
chops about that. But we are getting a bit more normal and some 
people still think that $16 a yard is too much to be paying one 
month after the fact.
    Second thing, what is the target date for fulfilling the 
requirement for trailers for peoples' housing? Again, I am told 
that we have requested 20,000 just for south Mississippi, that 
about 2,000 of that has been fulfilled. That leaves 18,000. So 
what is your target date for fulfilling that 20,000 
requirement?
    The third thing is, when you went out for the request for 
proposals for the cruise ships, did that include American flag 
vessels, like the Delta Queen, the Mississippi Queen? Did you 
bother to speak with the Maritime Administration and see if 
they had anything? For example, a couple coastal cruisers were 
repossessed in the wake of 9/11 that became part of the Federal 
Maritime Administration's fleet. Did you look there?
    Interestingly enough, the 3rd August edition of Boats and 
Harbors, which is a trade publication, advertised a 900 person 
floating barracks barge in the last weeks of August. Did anyone 
bother to look and to see its availability and its cost 
compared to the cruise ship contract?
    Mr. Burris. Let me answer number one, which is, all of our 
contracts that were ``non-competed'' or were expedited are 
going to be re-bid.
    Mr. Taylor. When, sir?
    Mr. Burris. That process is currently underway with some of 
our larger technical assistance contracts. I will have to get 
with my senior procurement official to see what the schedule of 
that is.
    Mr. Taylor. But you will get back to me on that?
    Mr. Burris. Yes, sir.
    Mr. Taylor. Thank you.
    Mr. Burris. But all of those will be re-bid.
    As far as the target date for the trailers, I will have to 
get hold of our field offices in Mississippi and determine what 
they believe that target date is and get back with you on that.
    Before I answer the last question, I would like to 
characterize a little bit what our agency is up against. It has 
been characterized here and alluded to that somehow we don't 
watch after the Federal dollars like we should. Let me say that 
while expedited assistance and providing funds in an expedited 
manner is not not compatible with keeping our fiduciary 
responsibilities with the Federal tax dollars, there is a lot 
of tension in there over following what everybody believes to 
be--
    Mr. Taylor. Mr. Burris, I am sorry to interrupt. I am not 
busting your chops.
    Mr. Burris. I understand that.
    Mr. Taylor. I was down there, I saw the immediate need to 
do something. I am just asking that, in your capacity, did you 
ever call the Maritime Administration and ask them what they 
had available already within the Government for fulfilling this 
need?
    Mr. Burris. I can say that I didn't feel like we had the 
expertise to execute a ship contract. We asked the Navy to do 
that for us. The Navy contracted--
    Mr. Taylor. Did you contact the Maritime Administration?
    Mr. Burris. I don't know whether the Navy contacted them or 
not, but I didn't. We asked the Navy to do that procurement for 
us.
    Mr. Taylor. All right.
    Mr. Burris. Let me finish my statement here on that. The 
men and women that work in my procurement divisions and our 
financial divisions take their responsibility seriously.
    They also understand that we have to get in there, get it 
done and do it quickly. We have not had a standoffish 
relationship with our IG's office. We have invited them in as a 
partner on this thing, when we saw we were dealing with 
billions of dollars up front. We have created strike teams to 
go out and address these things. We are being as proactive as 
we can to stop waste, fraud and abuse in any of these programs.
    But there is this tension of, I have to act on somebody's 
request by 6:00 o'clock in the evening and so--
    Mr. Taylor. Cutting to a quick end. If members of this 
Committee, members of the general public can show you in any of 
these instances a better way to do something, can you reassure 
me that you are not locked into contracts?
    Mr. Burris. I can assure you that we are not locked into 
the contracts that we currently have.
    Mr. Taylor. In each instance, be it trailers, be it the 
ships?
    Mr. Burris. Yes, sir.
    Mr. Taylor. Be it debris removal?
    Mr. Burris. That is correct.
    Mr. Taylor. Okay, thank you.
    Mr. Shuster. Thank you, Mr. Taylor. One final question, and 
you don't have to answer it now. But I hear there was a report 
that firemen from Phoenix tried to get into New Orleans, and 
they were accompanied by Federal marshals, and they were 
rejected from coming in because they had, the Federal marshals 
had sidearms, and the Phoenix fire department was bringing them 
in with them. Is that a fact?
    Mr. Burris. That is not exactly accurate.
    Mr. Shuster. It was reported on the national television. So 
I understand that it may be not be accurate.
    If you could give to me some time later, if you can get 
somebody to call us.
    Mr. Burris. I can give you all the details on that, yes, 
sir.
    Mr. Shuster. Okay. We can do that at a later point. I want 
to move on. I want to again thank you very much for coming in 
today. You have been here for two and a half hours or so. I 
appreciate your taking the time. I would encourage you, as Mr. 
Taylor has said, there are other ideas out there, there are 
other ways of getting things done that may be more effective, 
more efficient.
    I would encourage you to streamline things, push those 
decisions down to the people in the field to let them make 
those decision. I think we can do as good or better a job of 
getting some of these problems handled earlier, instead of 
going through the gyrations that we sometimes have to.
    So again, thank you very much. You are excused.
    Next up we will hear from our esteemed colleague from 
Louisiana, Congressman Richard Baker. We appreciate his 
accompanying us yesterday in New Orleans.
    I just want to make a quick comment. I talked to the media 
after that, and my comments were carried quite widely that I 
think I stated the obvious, we certainly want to go about the 
rebuilding of New Orleans using common sense. If there are 
places below sea level, I think it is only right to question 
whether we should be spending Federal dollars to rebuild.
    One thing they did not carry is I also said if someone 
gives me any compelling argument, that I would rethink a lot of 
that. I think you were one of those people that yesterday, or 
two days ago, they carried this comment, that there are parts 
of New Orleans that are absolutely essential to our national 
economy, shipping grain out of the port, the energy sector, 
those types of things.
    So I just wanted to say publicly that I am looking for that 
compelling argument. But I certainly know that my constituents 
and constituents in 430 or so other Congressional districts 
want to make sure we go about this in the right way and don't 
do things that don't follow a line of common sense, or try to 
just disrupt the laws of physics or nature.
    So with that, I would recognize my colleague from Louisiana 
for a statement.

 TESTIMONY OF THE HONORABLE RICHARD BAKER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Baker. Mr. Chairman, I thank you for this courtesy that 
you have extended. I also thank you and the members of the 
Subcommittee who ventured to Louisiana, Mississippi and Alabama 
this past week to view with your own eyes the consequences of 
these terrible storms.
    I also want to respond to your kind comment and say that we 
of the Louisiana delegation have visited frequently and talked 
a great deal about the need for accountability. On all 
occasions, when expressing our appreciation to this Congress 
and to the great people of this Country for their extraordinary 
generosity, that we owe it and we understand we owe it to be 
fully accountable and transparent in whatever steps that are 
taken going forward, and that we also have to balance that 
accountability to you and the taxpayer with our appropriate 
responsibilities to those victims of Katrina and Rita to ensure 
to the best of our abilities this circumstance does not occur 
again.
    There are some things that I have observed in the course of 
the aftermath that I thought would be helpful for the Committee 
to hear in addition to those points made at the Committee's 
last meeting in Baton Rouge. FEMA is by its nature an emergency 
response organization. It is not a permanent rebuilding 
organization, as Mr. Blumenauer's questions were pointed as to 
the overall costs, for example, of just debris removal. I am 
hopeful that we get to a point where we have an overall plan 
for the entire recovery that makes sense over time, not merely 
moving to the question of getting the trees off the power lines 
or getting the roads cleared to travel, but getting communities 
in a position with their own resources and hard work to begin 
the important business of functioning.
    Secondly, it is important to recognize that for the 
criticisms I may make of FEMA, FEMA's mission is ultimately 
defined by this Congress. We have the obligation to examine the 
manner by which they function, to look at the statutory 
constraints under which they operate and make clear we 
certainly want quick and responsible assistance for people in 
need, but we also need to look at it from the bottom line 
perspective as well.
    I will give just an example of some of the concerns that 
have come about in the aftermath. Much pressure has been 
applied to get emergency housing as quickly as is possible to 
anyone who is found to be a qualified victim of the disaster. 
Certainly that is a laudable goal.
    In the case of Baker, Louisiana, and I have no familial 
relation with the city of Baker, that is another story. But in 
the case of Baker, Louisiana, there is now on the ground a very 
nice, professionally accomplished project of about 250 trailers 
which people will begin to occupy probably this week. The 
project life is anticipated to be about two years for the stay 
of the evacuees at that location.
    The typical price per unit for trailers is running from 
$22,000 to $25,000 per unit in very large acquisitions. There 
is a cost to locate those trailers on the site, either by long 
term lease or by purchase of the land outright. In some cases, 
necessary adjustments to infrastructure, whether water, sewer 
or other utilities, may need to be implemented to facilitate 
the location of the trailers. Operationally, there is cost 
associated with security on-site, as well as other services 
which may be deemed appropriate.
    In the case of the Baker site, it is located away from the 
city by some distance. It is not walking distance to local 
services. There will be the need to deploy buses in order to 
move personnel from the site to get essential services and 
return. There is not job training located on the site for those 
wanting to go back and help rebuild their communities.
    If you were to take the total cost per trailer and divide 
it by the 24 months to get a per-month operating cost, it would 
certainly exceed $1,000 a month. In some cases, $1,500, $1,600 
per month.
    It would seem logical to me, as an alternative strategy, 
knowing that the rental market in the community is full, that 
with the emergency FEMA assistance of $2,000, and by the way, 
FEMA also has the authority to pay relocation costs, they could 
fly a family of four to Wyoming, for example, if they had 
family there. But with the $2,000 emergency money, the FEMA 
relocation money, which has already been deployed, you could 
find rental opportunities for families somewhere in this 
Country that would be close to services or perhaps close to job 
training or perhaps even the miracle of a job for $1,000 a 
month or less.
    So in examining the deployment of resources to date, it 
starts, Mr. Chairman, with a contract, I believe, for $237 
million with one vendor for trailers, all the way down the line 
to Uncle Bob's, where we might be just buying five, because 
that's all he has. But we are buying every trailer that will 
roll anywhere in America and deploying them into regions where 
we do not yet know where we will have sites that are adequate 
to meet FEMA's needs.
    FEMA's needs, however, are not the needs I reflect: job 
training, job opportunity. They are site-specific needs, and 
will the site accommodate the number of trailers being acquired 
and do they have the resources there to meet local codes in 
providing customary sewer, water and utilities.
    It may not be possible in all cases to match every evacuee 
with a temporary home in close proximity to work. But it has to 
be possible for some. The Port of Orleans is critical. We are 
now into the Nation's grain harvest in the midwest. One of the 
limiting factors in an efficient working port is that we don't 
have the employees. I know they have to be out there somewhere. 
But perhaps we could train people in the interim, move them 
into trailers in proximity to their employment, and let that 
family earn some money.
    I have determined that money really helps families be 
mobile, not mobile homes. So if our goal is to get people on 
their feet and get them back into the working economy, we need 
to train them and employ them.
    Among the folks I speak to at the evacuation centers, they 
are desperate to go back home, and they are desperate to get 
their jobs back, or any job. No one enjoys living in an 
evacuation center. I suspect after folks are in these trailers 
for a few months, they are going to be just as anxious to get 
out of there, with nowhere to go. We really need to think 
carefully through the deployment of taxpayer money in creating 
trailer cities which don't have the logistical ability to get 
people back working and on their feet.
    There is another example of concern that I was personally 
involved with, relating to the activities of a local sheriff's 
department. The morning after the event occurred, many local 
officials were deploying resources out for search and rescue 
which was maintained for about a four day period. The morning 
after, the sheriff of the Ascension Parish sheriff's office 
operated a facility known as Lamar Dixon, which became an 
unofficial staging area for about 70 different law enforcement 
entities to come together, where they were fed, geared up and 
deployed with boats down into the flooded areas. This happened 
on a daily basis.
    The second morning the sheriff came to me and said, we need 
to do this work, but I want to make sure I do not get in any 
legal difficulty with my constituents by spending money today 
in this emergency search and rescue for which I am not going to 
be reimbursed. I said, I will find out. There appeared to be 
some confusion, but I was ultimately told, yes, this could be a 
reimbursable event.
    I should have known better. I am a Louisiana politician, 
and you parse your words carefully. The sheriff then called and 
said, okay, where do I send my bill to, speaking to FEMA, and 
was told, that is not a reimbursable item. The sheriff called 
me back and said, I thought you told me that this was 
reimbursable. Sheriff, I was told it could be reimbursable. And 
then we hit on it, the word could. It didn't mean it would be, 
just meant it could be.
    Then we found out that for the sheriff to get recovery, he 
shouldn't bill FEMA, he had to bill each jurisdiction into 
which his personnel went when they did the search and rescue. 
As for example, if they were searching and rescuing in the 
Parish of Orleans, they had to send the bill to the city of 
parish of Orleans to be reimbursed.
    Well, the problem with that in this case is the Mayor just 
laid off 3,000 non-essential personnel last week. That is all 
the accountants and the mail openers. I am told if we don't get 
them some help, the Mayor is likely to announce the dismissal 
of the other 3,000 essential employees next week and the city 
will be without municipal government.
    Now, I have to ask the question. How likely is it the 
sheriff of Ascension is going to get reimbursed from the Parish 
of Orleans or the city when we are in such financial duress? 
The sheriff acted in good faith. He raised the issue in a 
timely manner. He was told by FEMA at a personal meeting with 
me and a FEMA official that he would be reimbursed. To date, to 
my knowledge, the sheriff is still looking for reimbursement.
    This can be replicated in many, many governmental locality 
relationships with this disaster, people acting in good faith 
to do what they thought was their appropriate duty and finding 
at the end of the day there are liabilities which will appear 
to go unpaid.
    As to the steps that this Committee might take in analyzing 
and redirecting FEMA's emergency role, I will simply say, there 
must be a responder of a nature like FEMA. And I cannot sing 
too highly the praises of the men and women of the National 
Guard, some 46,000 strong at one point in Louisiana, did 
remarkable work. That military command and control at the 
outset would have made it a great deal easier for our first 
responders to have engaged in work in a safe and responsible 
manner.
    But there still must be an entity, FEMA-like. I don't care 
what you call it. But it needs to be given clear authority and 
responsibility to act in times of national disaster and bring 
critical needed assistance to people in the most reasonable 
manner possible.
    However, moving beyond FEMA, I believe there is going to be 
a long term need for a permanent reconstruction, which is not 
the role of the FEMA organization. I and the members of the 
Louisiana delegation will introduce this week the likelihood of 
a bill that reaches out beyond the current need of FEMA and 
looks at a more appropriate, longer term structure to help and 
assist with the long term rebuilding.
    It will start, Mr. Chairman, with the reconstruction of a 
stable and secure levee system built to a category 5 storm. It 
will deal with the environmental remediation now necessary to 
get large tracts of property available for commercial use. It 
will require at some point, once made available, the sale of 
large assets to the private sector for redevelopment, so the 
taxpayers can see some money being returned to them at the end 
of the day.
    I will discuss in more detail the recommended plan, but 
would urge the Committee members to take a careful look and 
would certainly ask for your support.
    Finally, I have been working with Mr. Ney, Chairman of 
House Administration, to establish a House intranet, the 
purpose of which is to allow members who have resources or 
capabilities that they would like to see deployed into the 
disaster area be able to post those on that web page, and for 
those of us in the affected areas, to match up those volunteer 
efforts with local officials who may need assistance. Mr. 
Radanovich, for example, wrote me and said he had a number of 
mayors in his communities that wanted to donate surplus 
equipment, fire trucks, police cards, anything that would be 
functional and of some use to these small towns which have 
literally nothing left.
    Under the House Ethics Rules, there is a concern that 
utilization of official resources for charitable solicitations 
would be in violation. I have been requested in moving this 
resolution forward to ask members on both sides of the aisle, 
in and out of the affected area, to sign on to a letter that I 
will present to the leadership asking for immediate 
consideration of this resolution.
    I have had any number of members, and again let me say 
thank you to each of you, it has really been quite something to 
have as many people come up to you and say, I have this and I 
would like to help, how can I do it. The B part of that has 
been, we have offered it through the formal process, either 
FEMA or some other mechanism and we have been unable to get 
closure on how to make this donation.
    I think we as policy leaders ought to be able to get this 
worked out where we can just communicate directly with each 
other. I will be happy to give the names, phone numbers and 
addresses of the mayors, the police jurors, the sheriffs and 
let the professionals work out a transaction that will be 
ultimately very helpful to people at very little cost.
    So my last ask, Mr. Chairman, is that the Committee 
consider going on to this letter of request that would enable 
us to waive the House ethics provisions that would constrain 
these charitable activities from being engaged on an official 
site of the House. With that, Mr. Chairman, I appreciate the 
courtesy of the time extended.
    Mr. Shuster. Thank you. And as always, you have some great 
observations and ideas. The trailer cities, I think we know 
that it is best, communities are best served if their folks can 
get close to home and start to get back to some normalcy in 
their life, not that they are going to be normal, but starting 
to. The situation with your sheriff, I have witnessed that 
first hand over in Escambia County in Pensacola, the Ivan 
hurricane, where people were told things and then two days 
later, two weeks later, the story changed. I think that comes 
down to a lack of trained personnel with FEMA. We have to do 
something to make sure we have people that know what the rules 
are, so we are giving sheriffs and local emergency folks the 
right answers.
    On your final point there, with an intranet system, I know 
we have tried to go through FEMA to figure out what folks in my 
district could do. We ended up talking to Mr. Boustany and he 
and I coordinated and we were able to get a truckload or so of 
items down there. But it was through that contact that we were 
able to do that. So that makes a lot of sense.
    You bring the Country all together right here in 
Washington, we ought to be able to do those things. It doesn't 
make any sense in a situation like this, the ethics process 
isn't clear anyway to many of us. So that is something I would 
look forward to working with you on.
    I don't have any questions, I don't know if Mr. Blumenauer 
has any questions.
    Mr. Blumenauer. I appreciate your bringing it home in a 
very practical way. It is very useful and I share our Chair's 
indication that it would be great to sign up on your letter 
internally, and then all roll up our sleeves and look at the 
big picture.
    Mr. Baker. Terrific. Thank you, sir.
    Mr. Shuster. Mr. Bachus.
    Mr. Bachus. Congressman, you have gone into some detailed 
example, the sheriff in getting reimbursement. As you know, New 
Orleans, Gulfport, Biloxi, Waveland, all along the Mississippi 
coast, these communities, they have lost much of their tax 
base. A lot of it will not be coming back this year or even 
next. Their revenue streams, various revenue streams are gone.
    Do you see the need for any legislation or changes in FEMA 
procedures on reimbursing cities and towns that really just 
cannot employ their police and their fire? I know under the 
Stafford Act they can get reimbursed for overtime. But that is 
not going to begin to do it. Do you have any suggestions?
    Mr. Baker. Thanks for the question, and thanks for being 
there in the district on Tuesday as well.
    Yes, I don't know how to streamline it. I am sure there are 
people on the Committee that could come up with a methodology 
that would make some sense. But the processes which you must go 
through today, and frankly whether it is HUD, FEMA, just 
generally the bureaucratic process of making application, tends 
to be a 30 day cycle at best, 45, logically, 60 days is not 
uncustomary.
    I understand it in the normal course of business where you 
are really not sure what the person may be asking for, you are 
not really sure what they are going to do with the money. We 
have a responsibility to do our due diligence to protect the 
taxpayers' money.
    In this case, you could answer those questions with a short 
helicopter trip. Send down a team of all the agencies, let them 
fly over, do a damage assessment, do it by mapping, maybe with 
GPS, draw up a map and if you are located in area code XYZ, and 
you are the mayor of that community and you write in and say, 
here is my operating budget from last year, we raised and we 
spent, we need 30 days of that at least to get by, that ought 
to be out the door. That ought not be necessary if it is a 
public official using publicly reported income to ask for one-
twelfth of that year's income to hold his government together.
    During that 30, maybe make it 60 days, teams could come 
down and do a further assessment. I am running into that 
problem now with various bills we are trying to move through 
the process. I have actually had folks ask, well, why do you 
need this money and where is it going. I understand that is the 
normal way we do things, is to ask those questions. But when 
your mayor is on the evening news laying off half his employees 
this week and announcing he is laying off all his employees 
next week, and the city has no revenue stream period, it would 
seem that would be sufficient justification for extraordinary 
assistance.
    So I think the current constraints of the statutory 
provisions and the concerns that any person in the bureaucracy 
would have of automatically sending money out without doing 
what is required, they have legal liabilities attached to that. 
But there ought to be something, whether it is a FEMA-
administered program or some other mechanism where a local 
government official, maybe as a result of a presidential 
disaster declaration, with a mappable confirmation and you know 
the community has lost 50 percent of its housing and maybe all 
of its jobs, something out to go out the door.
    I regret to tell the Committee that we have any number of 
communities, I mean a large number of communities, that will be 
some years before they get to where they used to be. That is 
saying a lot. I think it may have been your discussion, Mr. 
Bachus, I overheard someone talking about the cost of debris 
removal and how it varied from $6 to $26. The last count in 
tonnage, which has been updated as of the end of last week, was 
77 million cubic yards of debris. That is enough to fill 250 
football fields 50 feet deep. Now, we don't know where we are 
going to put it quite yet.
    The second part of the observation is that people haven't 
started tearing out the insides of the flooded homes and 
putting the refrigerators--there are thousands of automobiles. 
All that has to be disposed of.
    Now, all that has to be taken care of before you can really 
restore normal public function. So we are talking about a long 
time. So we are going to be around here for a long time asking 
for a whole lot of help. I hope we don't wear out our welcome. 
Thank you.
    Mr. Bachus. As you say, if you lay off the accounting 
department in a city or county, at the very time when the 
demands on them are actually--
    Mr. Baker. Yes, my sheriff can mail the letter, but I am 
not sure exactly who is going to write the check.
    Mr. Bachus. I believe in the case of some of these cities, 
Camden, Louisiana and others, we have to act immediately. Even 
a loan has to be paid back with interest. I think, Congressman 
Baker, you mentioned that New Orleans and Louisiana may have 
been placed on credit watch.
    Mr. Baker. Yes. Standard and Poors, Moody's and Fitch have 
all put Louisiana, the State, Orleans Parish, on a negative 
credit watch. It would make our ability to raise funds much 
more difficult. At least we would have to go into the debt 
markets at a much higher price than customary. The debt load of 
the State already was significant.
    So these are not developments that are helping us to help 
ourselves. Let me add that point, and emphasize it, we want to 
do this as best we can on our own. We are not trying to avert 
our own obligations. We are not asking folks to give us money 
and walk away. We need to get our jobs back so we can pay those 
taxes and support our government. We know the long term future 
of Louisiana will come only when we have rebuilt properly, with 
a secure levee system and evacuation routes that get us out of 
harm's way when these storms eventually do come.
    But we are accustomed to and expect accountability. Any 
oversight this Committee or the Congress chooses to place on 
any assistance granted is absolutely understood.
    Mr. Bachus. I appreciate it. I want to commend you for your 
package of financial service legislation that you have authored 
in respect to this to try to keep our financial institutions 
viable, to allow customers who have lost their homes some 
consideration.
    Mr. Baker. And thank you for your courtesies in helping on 
Financial Services and moving this critical legislation through 
the process. Thank you, sir.
    Mr. Shuster. We need to wrap up. We have some locals here 
that are worrying about flights.
    I just want to say two updates to you about the Stafford 
Act. This Committee believes that the President, actually FEMA 
stated here today that the straight time versus the overtime 
situation, that is not written into the Stafford Act. That is a 
policy that they have adopted over the years.
    So that can be changed. The President, FEMA can change 
that, and we are urging them to do that to help with those 
bills, with the emergency pay for straight time instead of just 
overtime.
    Second, we are trying to work out a deal with the 
appropriators as we speak on the community disaster loan 
program, lift the cap and get that money out to them. So we are 
working on that.
    Mr. Baker. Yes, sir, I was just in the anteroom talking to 
the Appropriations Committee staff about it. We are not there 
yet, but we hope to get it across the line. Thank you very 
much, sir.
    Mr. Shuster. Thank you. We appreciate your being here 
today.
    With that, we will get our third panel up. Governor Wise, 
why don't you get in the first chair. Governor Wise, Mr. 
Rodriguez, Mr. Buckley, Ms. Kilgore and Mr. Ashwood. We 
appreciate all of your being here today.
    We will start with Governor Wise. I first want to welcome 
Governor Wise here. He is no stranger to this room. He served 
in the House of Representatives for 18 years, he served on this 
Committee and he was the Chairman of this Subcommittee at one 
point. So it is great to welcome you back and we look forward 
to hearing your testimony. We will get started with you, 
Governor Wise, and you can excuse yourself whenever you see 
fit.

 TESTIMONY OF THE HONORABLE BOB WISE, PRESIDENT, ALLIANCE FOR 
EXCELLENT EDUCATION; HENRY ``JUNIOR'' RODRIGUEZ, PRESIDENT, ST. 
   BERNARD PARISH; KENT W. BUCKLEY, DIRECTOR, BOLIVAR COUNTY 
   EMERGENCY MANAGEMENT AGENCY, BOLIVAR COUNTY, MISSISSIPPI; 
JANICE R. KILGORE, CEM, DIRECTOR, DEPARTMENT OF PUBLIC SAFETY, 
   ESCAMBIA COUNTY, FLORIDA; ALBERT ASHWOOD, VICE PRESIDENT, 
    NATIONAL EMERGENCY MANAGEMENT ASSOCIATION AND DIRECTOR, 
          OKLAHOMA DEPARTMENT OF EMERGENCY MANAGEMENT

    Mr. Wise. Mr. Chairman, thank you, and it is a very 
important hearing.
    I also want to thank you for this panel, because I feel it 
is a privilege to be here with each of these people. Because 
they are the ones who make it happen. Whatever the structure of 
FEMA is, whatever the Federal emergency response structure is, 
it is the men and women that this table represents to my left 
that make it happen. That is why it is so important.
    They are the ones who will be in the four-wheel drive 
vehicle filled with coffee cups, they are the ones who are 
going to have the bleary eyes, they are the ones who are going 
to coordinate the volunteer fire departments and the 
firefighters and the State police and all those who come in. I 
learned that through 10 federally-declared disasters in my 
State while I was Governor and 31 State state of emergencies 
that were declared.
    Mr. Chairman, I will submit my testimony for the record. I 
have just a few notes to make, not about the specifics 
necessarily of what is taking place on the Gulf Coast, but I 
think it relates to that. Rather than talk about FEMA as it 
currently is and some of its limitations, I would like to make 
some recommendations about the way it should be.
    In responding to natural disasters, FEMA does best in the 
most independent capacity it can. I worked, Mr. Chairman, with 
two FEMA administrators, the first when I was in the House of 
Representatives on this Committee with James Lee Witt. I think 
during those times, FEMA gained a reputation as an organization 
probably one of the most effective in the Federal Government.
    I worked with another excellent administrator after I 
became Governor and President Bush became the President, and 
that was Joe Albaugh. Both those people, while they had 
different personalities, had similar traits. The traits were 
that they one, knew what they were doing because they had been 
at the State and local level for many years, they knew 
emergency services, they knew what everyone from the local 
emergency administrator needed to what the Governor needed, and 
they had direct contact to the President of the United States 
and the White House. They were in effect, both James Lee Witt 
and in my observation, Joe Albaugh, they were both in effect 
unofficial Cabinet officers and they carried the same weight.
    That direct relationship to the White House is crucial. I 
think it also has been borne out in the Katrina experience. 
Because if FEMA is truly to coordinate planning and response to 
natural disasters, all the other Federal agencies must know 
that the FEMA director and the President communicate directly, 
that there isn't anyone between them.
    Numerous Federal, in West Virginia, when we had to activate 
our emergency services network, there were a number of Federal 
agencies that would be routinely involved. You have talked 
about many of them today: Small Business, HUD, VA, EPA, 
Department of Agriculture, Department of Labor, Army Corps of 
Engineers. That just starts the list. Then most times you have 
to bring in somebody that you didn't expect to. It is very 
important that that FEMA director can go and cut through all 
the levels of bureaucracy to get to the person that it needs to 
be, and that the other Cabinet officials treat the FEMA 
director with the respect that is so important.
    I attached to my statement a copy of the--and let me just 
say that had I sat where you sit now, Mr. Chairman, and any 
member of this Committee, I would have voted for the DHS 
structure following 9/11. But having said that, I now recognize 
that what looked good on paper doesn't necessarily work out in 
practice in terms of FEMA. Because if you look at the 
Department of Homeland Security organizational chart, and it 
took me two tries to find where FEMA is. If it takes me that 
long, then it is going to take the FEMA director that long to 
get through when he or she absolutely needs to.
    I knew that when I had a problem, I could go to Joe 
Albaugh, and he, if he felt it was worthwhile, would 
immediately cut through and get to the White House. I did not 
have to spend long days trying to figure out my end run to the 
White House, through a Congressional delegation, through people 
I knew, whatever it would be. The FEMA director could do it if 
they thought it was worthwhile.
    And admittedly, even after FEMA moved under DHS in March of 
2003, I still felt I had a direct connection to the highest 
decision makers. I think I know why now, even though FEMA was 
farther removed. It is because the first DHS Secretary was Tom 
Ridge. You know Governor Ridge, Secretary Ridge, formerly 
Governor Ridge, was well-respected by Governors and he had 
certainly been through this drill, the natural disaster drill, 
many times.
    He met with Governors regularly. He knew and understood our 
needs in dealing with natural disasters, and at the same time, 
we were all learning to deal with terrorism. Once again, 
through Tom Ridge, we knew that we had a direct line to someone 
who understood our problems at the local level and also who had 
a direct line to the White House.
    With respect to the present Secretary of DHS, I do not 
question his credentials in any way to coordinate anti-
terrorist activities. Indeed, the fact that there has not been 
a major terrorist incident since 9/11 indicates to me that 
people are doing the job that they need to do. Understandably, 
his top priority is preventing terrorist attacks.
    But I look at his resume, at least on the web, and I don't 
see any indication of past work in natural disasters. I don't 
see any work at the local level. So now the major, the main 
natural disaster response agency is removed from direct 
communication to the White House, and the top of the 
organizational chart has no real experience or sensitivity to 
dealing with disasters.
    Another reason to look at some way of giving FEMA back its 
independent status is the need to be able to present and argue 
for its budget and programmatic needs, based on disaster 
prevention and recovery in the States and not have to fight 
within the existing DHS bureaucracy for that. FEMA used to 
apply directly to OMB, of course, but the White House, for its 
budget. Now it has to do it in conjunction with DHS and it has 
to square off against the other legitimate needs that are 
there.
    Some of the recent cuts, I would suggest, indicate either a 
shift of priorities, and I can't argue with the shift in 
preparing for terrorist attacks, I can't argue about the 
result. Or in ignorance of what is needed to respond, or the 
lack of awareness of the importance of preventive activities. I 
think it is interesting that former FEMA Director Brown 
indicated in recent Congressional testimony that budget cuts 
had restricted his Agency's response capability.
    We made good use in our State of the hazard prevention 
funds under both the previous Administration and the 
Administration of President Bush. That actually saved millions 
of dollars for the Federal Government, because when we had the 
same areas flood again, they weren't affected in the same way.
    Likewise, FEMA must be free to consider, propose and 
consider innovative interagency recovery programs. The hazard 
mitigation program we have talked about. I know that in 
Congressman Rahall's district, my first presidentially declared 
disaster wiped out an entire rural mountain town, a couple of 
thousand people. We realized that existing recovery programs 
would not be sufficient.
    So at the State level, they couldn't take any more SBA, 
even with the SBA, they couldn't take low interest loans. They 
were out of reach.
    So we at the State came up with a $20,000 forgivable loan 
that said, if you stay in business for five years, then that 
loan is forgiven at 20 percent a year. We also offered at the 
State level a $15,000 very low interest loan, and then we 
worked with SBA so that when they did their counseling, they 
put our loan in front, so that these people could get started.
    I am happy to tell you today that we have a lot more 
taxpayers in that community when originally it looked like we 
would have tax consumers for a long time, and a lot of small 
businesses are back in operation.
    It is going to take innovative approaches on the Gulf 
Coast, and FEMA needs to be free to present those and to have 
them considered.
    A couple of quick points. The differences between FEMA in 
responding to natural disasters and terrorist or enemy attack. 
I have come to believe that they are not necessarily the same 
all the time. For natural disasters, there are often several 
days of warning. You know it is coming, in the case of 
hurricanes and floods and major rain storms, massive weather 
surges, such as snow. Even brief warnings precede fires and 
tornadoes.
    But for terrorist attacks, there usually is no warning and 
no preparation time for the community. The immediate response 
is performed under different conditions as well. With natural 
disasters, the event typically occurs and then is gone, the 
flood moves through, permitting the immediate search and rescue 
to take place with no other considerations.
    But with a terrorist attack, however, you must conduct it 
with an eye to watching out for subsequent attacks and also 
apprehending the perpetrators. There may be other items of 
priority as well, such as protecting vital assets. With natural 
disasters, the immediate response is usually straightforward, 
with no need for specialized activities. Responding to a 
terrorist attack may require highly trained personnel in 
specialized areas.
    With our DHS money, we put together regional response 
teams, moon suits, whether it is an anthrax attack, biomedical, 
whatever it is.
    So that is another reason I think FEMA needs to get the 
recognition that in natural disasters, it has a unique role. 
And also planning for natural disasters differs significantly 
from attacks on the homeland. Since natural disasters usually 
can't be prevented, the planning is about mitigation or 
responding to the aftermath. In the case of floods, we knew we 
couldn't stop the rain, but we could do something with it once 
it got there. It is not often the case in terrorist attacks.
    In conclusion, let me also note that FEMA needs the ability 
to think, particularly in the Gulf Coast, outside the box. 
Simply restoring things to the way they were won't always work. 
I am in education now. Simply restoring Orleans Parish schools 
to the condition they were isn't fair to the kids of Orleans, 
just like you don't want to restore the levees to the condition 
they were. They have to be strengthened.
    It is not a FEMA responsibility to do that. But it is, I 
hope, a FEMA responsibility to be a partner to the State and 
locals. When that happens, we build back stronger.
    Thank you, Mr. Chairman, and let me just say that I have 
the greatest respect for FEMA. I am one of FEMA's biggest fans. 
We need to let FEMA do the job that FEMA is quite capable of 
doing.
    Mr. Shuster. Thank you, Governor. I know you have to leave 
shortly, so I want to ask you a question before you do, because 
you have very interesting perspective, I think, being here for 
18 years and then having to go out and be chief executive of a 
State and deal with FEMA at both levels.
    If you had a magic wand and you could wave it, what would 
FEMA look like to you?
    Mr. Wise. Well, I would put Joe Albaugh back, first of all.
    [Laughter.]
    Mr. Wise. Or I would put somebody like him, assuming that 
Congress will not be able to change the structure of FEMA for a 
while. If it could, though, working with the President, 
recognize the need for the FEMA director to establish a unique 
relationship, particularly once it is already in an existing 
agency, with the White House. That is number one.
    If I could wave the magic wand, I would also restore some 
of the hazard mitigation funds, the money that went into 
prevention. And of course, so that FEMA can get back up and 
running and in the way that it was.
    Those are the two main things I can think of. I guess I 
would urge, though, and I understand there is some move to even 
break FEMA up as it already is further. I would just urge 
against that, because former Director Brown made an interesting 
point in his testimony recently. He pointed out that while he 
had been the Director, there had been 150 federally-declared 
disasters, some of them were on my watch, in West Virginia. 
Because of the effective work of DHS, there had been no 
terrorist incidents.
    But while that was going on, we still had 150 natural 
disasters. That tells me that there is still such a great need 
for FEMA to do the job that it has over several administrations 
built itself up to do.
    Mr. Shuster. Do you think that FEMA can operate like you 
say within the DHS structure, or do you feel as though it 
should be taken out and operate as it did with your experience 
prior to 2001?
    Mr. Wise. In 2001, I knew how to get to the White House. 
And I knew I didn't need to go to the White House, because when 
I talked to Joe Albaugh, I was at the White House.
    Mr. Shuster. But we can't always be assured that we have 
James Lee Witt or Joe Albaugh in that position. So would it be 
your position that, as a former Governor and a former member of 
this Committee that FEMA is better outside that DHS box?
    Mr. Wise. Yes, sir, it definitely is. Because my guess is 
that whoever is in there is going to be someone that the 
President directly knows and directly appoints, because of the 
importance of that position. The second thing is that if FEMA 
needs to respond to a terrorist incident, I don't see why you 
couldn't use the old model of the Coast Guard, which, when 
necessary to activate it, the President put it under the 
control of the Navy. There are ways we can work that.
    But FEMA, I would urge you over time to look at making 
independent again.
    Mr. Shuster. Thank you, Governor, and I know, you can 
excuse yourself whenever you need to.
    Mr. Wise. Thank you, and thank you for the Committee's 
indulgence.
    Mr. Shuster. We appreciate your being here. Thank you.
    We will move on in the panel to Mr. Henry Rodriguez, who is 
the President of St. Bernard Parish, which is, I believe it was 
the hardest hit parish in the New Orleans area. I know also 
from my experience two weeks ago that Mr. Rodriguez is a plain-
spoken gentleman that says what he means and means what he 
says.
    So with that, Mr. Rodriguez, you can proceed.
    Mr. Rodriguez. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today.
    I also appreciate the fact that you came down to St. 
Bernard and not only St. Bernard, but the entire area, and you 
saw what it was all about. It is hard to explain and describe 
what it is like. My parish has been, I think it is the hardest 
hit area there is.
    If you were to come in my parish today, you would not find 
one business place open. You could not stay overnight in but 
one house that I know of. There is not a light bulb that is lit 
in my parish. We are beginning to get our water together, 
because that is a local concern. The gas, we have no gas. We 
have none of the utilities.
    Our parish is totally destroyed. If you would come look at 
it, you would think a bomb hit St. Bernard Parish from one end 
to the other. I have never seen anything like it, not in my 
life, not anything.
    Our tax base is totally depleted. We depend on ad valorem 
taxes, we depend on sales taxes. We have none of that.
    Our sheriff's office depends on the fact that we have this 
revenue source, because he gets a certain percentage for 
collecting the taxes. So when St. Bernard goes down, so does 
our enforcement division, Sheriff Stevens, who runs our 
sheriff's department.
    When I left yesterday, he was laying another 100 people 
off. They simply can't get the money to us. We need it. But 
somehow or another, the money is not getting where i should get 
in a timely fashion.
    The problem that I saw with FEMA is, it finally got to us 
after about five days. Five seems to be the magic number in 
every community. I don't know what happened. But for five days, 
St. Bernard Parish existed without any outside help whatsoever, 
no communications.
    But you know what I will tell you? And you can figure this 
out for yourself, we had Canadian police that came down on the 
third day, walked into my office and said, what can we do? A 
self-contained unit, 50 people from Vancouver, Canada.
    Now, how did those 50 guys get from Vancouver, Canada, and 
they were there on the third day? You tell me. Because we were 
surrounded by water, we had no ingress or egress, and they got 
there. My own State government and Federal Government couldn't 
get to St. Bernard Parish.
    The issue that was brought before you and that you have 
been talking about concerning the trailer issue, St. Bernard 
Parish is in favor of the trailers. But what I found out the 
other day after a meeting at the Governor's office is all the 
temporary housing that they have been telling people and 
assuring people that they will have is in fact not there. There 
is not enough trailers in the United States to supply what is 
needed for this catastrophe that we have today.
    Our thoughts on trailers were a little bit different. We 
liked the idea of a trailer city, but what we were going to do, 
is as a person comes into a subdivision and he wants to rebuild 
his home or he wants to build a new one, that that trailer 
would be placed on his property until he was through building 
his home. That way we figured we wouldn't use as many trailers, 
and it wouldn't be no big issue at the end of 18 months to 
close these trailer cities down.
    Also, I think one of the things that people have to look at 
these trailer things is, there are existing trailer parks, and 
there are existing trailer parks in my area that will house at 
least 800 or 900 trailers, and we intend to look at that.
    One of the problems that I have found with this situation 
was communications. It just didn't seem that the left hand knew 
what the right hand was doing. You asked a question, and if you 
asked one person, and I think the gentleman before me kind of 
stated that, if you asked for an opinion on whether you could 
get reimbursed on something, one would tell you yes, and the 
next one would tell you no. It was kind of a nightmare when you 
get to that situation. So I think communications and education 
is something that needs to be taken care of.
    The other issue, and I kind of feel that number one, I 
don't think they have the proper staff. I don't think FEMA has 
the proper staff. To be totally honest with you, I think 
everybody was overwhelmed at the vastness of this situation. I 
know at local government we were. And I know State government 
was. And I am assuming from what I saw, Federal Government was. 
They weren't prepared for this. They simply weren't.
    The problems also arose with us is that people that 
represent FEMA, you will get a representative, like we had a 
representative that served us for almost three weeks, a little 
over two weeks, almost three weeks. That gentleman was 
replaced. The guy was really, he knew his business, so 
obviously I feel that he was, I know he was a full-time FEMA 
representative.
    The next person that came in obviously came out of a pool 
that could be used. I think he was a representative from NASA 
or somewhere. Nice gentleman, but he just couldn't give us any 
answers to any of our questions. So basically, we are back down 
to zero. We are climbing the ladder, but we keep going up and 
then we go back. Whenever you get in that point, in a situation 
we're in right now, you have to keep going or you are going to 
drown in this thing.
    St. Bernard is, we are going to come back and we are going 
to come back better. We are determined.
    But one of the FEMA problems that has us at the present 
time is the inability for FEMA, and that is with regard to the 
Stafford Act, to take care of the base pay. We simply don't 
have the funds. We don't have any funds coming in at the 
present time. Normally this is the time of year when it is 
always tough on local governments, because you get your ad 
valorem monies in the beginning of the year, and you stretch 
them. When you get to the end of the year, then that stretching 
gets pretty thin. And you are depending on your sales tax from 
your holidays, and there is not going to be any sales tax at 
St. Bernard for holidays.
    Gentleman, that is basically, I think that is all I can 
help you on. We need some help. I will be totally honest with 
you, the next time I come to Washington, I am probably going to 
the Chinese embassy and apply for foreign aid.
    [Laughter.]
    Mr. Shuster. Well, there are some things we are doing that 
we will address. But we are going to go through the Committee, 
then I will have some questions I would like to ask you and 
everybody. But we will proceed.
    Next is Mr. Kent Buckley, who is the Director of Emergency 
Management from Bolivar County, Mississippi. Where is Bolivar? 
I was in Mississippi, I was in Hancock County.
    Mr. Buckley. Bolivar County is in the Mississippi Delta. It 
is about 330 miles north of the coast, but I was deployed to 
Hancock County.
    Mr. Shuster. All right. Please proceed.
    Mr. Buckley. Chairman Shuster and distinguished members of 
the Subcommittee, I would like to thank you for inviting me 
here to provide this testimony on our Nation's worst natural 
disaster and the recovery operations that are going to be part 
of our lives in Mississippi for many years to come.
    I am Kent Buckley, Director of Bolivar County Emergency 
Management Agency in Cleveland, Mississippi. It is an office of 
two people, charged with maintaining our county emergency plan 
and coordinating response of all emergency departments, 
bringing to the table Delta State University, the hospital, 
nursing homes, 15 municipalities, industry, private sector and 
so forth. We conduct preparedness programs with the public just 
like we have done in the old civil defense days.
    I am President of the Mississippi Civil Defense Emergency 
Management Association, MCDEMA, made up mostly of local 
emergency management directors and staff. Our membership is 
about 280. I am also a member of the International Association 
of Emergency Managers, with a membership of about 2,800.
    We just experienced a new disaster standard with Katrina in 
Mississippi. The old standard was Hurricane Camille, that came 
in about 40 years ago, August, 1969. Katrina has left tens of 
thousands homeless with losses of jobs and critical 
infrastructure. It is going to take months to deal with the 
debris and years to close this disaster out.
    My county was not affect nearly as bad as much of the 
coast. I was deployed to Hancock County under our statewide 
mutual aid compact, and plus the EMA director in Hancock County 
asked for me. Hancock County was ground zero for Mississippi.
    Chairman Shuster, we very much appreciate the fact that you 
and some others of the Committee got a first-hand look at the 
massive damage last weekend. Hancock County was thrown into 
third world conditions. Officials in emergency management 
fought the water coming into the building at one point in 
Hancock County, and they passed out life jackets among 
themselves and wrote numbers on their arms with permanent magic 
markers. Then they placed vital personal information and so 
forth in the ceiling area, so in case the water got up and they 
didn't make it somebody might be able to find that information 
and get to them. They didn't know if they were going to make it 
or not.
    Much infrastructure was totally destroyed. This is going to 
be a huge burden on the towns and counties when the funds there 
have been drained while they are trying to meet payroll and 
they are continuing the recovery efforts.
    We need redundant communications like a nationwide 
satellite radio system. We only had one of those in Hancock 
County for days. FEMA is assisting with housing, which is a 
huge logistics matter. It is going to be a huge logistics 
matter later on also, when the trailers have to be removed. We 
still need those trailers, since many are still living in their 
front yards. We need a better handle on logistics and tracking 
resources in the emergency management field.
    FEMA representatives in our counties did a good job, 
according to our county emergency management directors. I 
called a number of them before I flew to Washington, D.C. 
However, we need to work on getting a means of registering the 
affected people. It is kind of hard to do when you don't have 
phone lines, cell phones, you don't have internet and you don't 
have computers. And when you don't even have a building to use, 
well, then, maybe FEMA needs to bring a building with it.
    Response and capability has to be built from the ground up. 
That means local programs need better support from the 
Emergency Management Performance Grant, that's EMPG. This is a 
50/50 matching grant program that is the backbone of emergency 
management in the United States. We have a $264 million 
shortfall in that program.
    Congress will have to decide what level of preparedness it 
is willing to pay for that translates into emergency management 
response capabilities dependent upon EMPG funding. Emergency 
managers in Mississippi believe that FEMA should be restored to 
an independent agency and its director restored to Cabinet 
level status. You can't dismantle an agency and expect it to 
respond like it used to, and preparedness needs to be restored 
in FEMA.
    Homeland Security can have a preparedness program, National 
Weather Service has one, Red Cross has one, others have them. 
But all hazards preparedness needs to stay in FEMA. 
Preparedness response, recovery and mitigation is the emergency 
management program across this Nation.
    I would like to thank you for this opportunity to visit our 
Nation's Congress and to provide you with this testimony. I 
will be happy to answer any questions that you may have.
    Mr. Shuster. Thank you very much, Mr. Buckley.
    Now I would like to recognize Janice Kilgore, who is the 
Emergency Management Manager for Escambia County. Welcome. I 
was in Escambia County over a year ago, and your wonderful 
Congressman Jeff Miller, I know he works hard and works well 
with you folks down there.
    So please proceed.
    Ms. Kilgore. Thank you, Mr. Chairman, members of the 
Committee. It is an honor to be here today.
    I have served Escambia County in public safety and 
emergency management for the past 32 years. I offer some of the 
comments today based on those experiences.
    We have heard a lot in different testimony about issues 
associated with how you communicate, coordinate, consistency or 
lack thereof, and also being able to timely deploy these 
resources. Those are things we feel like that we have to look 
at in an adequate emergency management program.
    Emergency management does begin at the local level, but we 
must have help from State and local governments to make that 
happen. A year ago, September 16th, 2004, Hurricane Ivan made 
landfall at the Alabama-Florida line as a category 3 hurricane. 
Nowhere does it compare to what our neighbors in Mississippi 
and Louisiana saw with Hurricane Katrina.
    But we still had a lot of devastation, a lot of damage in 
our county, in Escambia County and Pensacola. We had better 
than half of our homes with some type of damage there. As a 
result of that, we had people that needed supplies. I will say 
that in less than 48 hours, we had ice, water, and MREs being 
distributed to the citizens in our county. So it can be done in 
a timely manner.
    Many agencies came to help us after Hurricane Ivan. So when 
Katrina went into the Mississippi Gulf Coast, it was our turn 
to go over and offer assistance. On August 30th, the afternoon 
after Katrina went in, we sent a multidisciplined team to 
Harrison County, Mississippi. They came home for the last time 
on September 29th, so there were there just about a month.
    Early reports from our team told of all the devastation 
that they saw and all the basic needs that they had, the 
supplies, just tetanus information, being able to put band-aids 
on people that had scrapes and cuts. The food and water that 
they took with them they actually passed out to people in the 
community because they couldn't find anything else. They were 
using their own supplies for that. Day after day, they would 
call back in, telling us of different communities that really 
needed assistance.
    Katrina caused catastrophic damage and any community would 
have a hard time dealing with something of that magnitude. They 
can't do it by themselves. They have got to have assistance. 
And the greater the population you have, the more assistance 
you are going to need.
    I have already talked about communications and coordination 
being extremely important as it relates to any disaster. The 
old saying that you hear, you play like you practice, local 
governments have got to have adequate plans and make sure that 
those things come together. Thankfully, we have groups like our 
churches and businesses and individuals that step up during 
times of disaster and don't necessarily wait for the Government 
to ask them to come in and help. Because they were a big help 
to us after Ivan, and we saw those same things in the couple of 
times that I visited the Mississippi Gulf Coast in the last 
month.
    We talked about the consistency or inconsistency. Like the 
other people said, you would get one story on how to fill a 
form out, only to get told two or three different times by 
other FEMA representatives, no, you have to do it this way. So 
you spend a lot of time and effort spinning your wheels. So I 
really hope that something will come out of this on consistency 
for being able to get the word all the way down to the people 
that are on the streets giving that information. There has to 
be proper training for all the people that are employed during 
these events.
    The other thing that I will mention is the status of the 
emergency Preparedness funds, the emergency management funding 
that comes down from the Federal Government to the local 
levels. Last year, the fiscal year that just ended, Escambia 
County received $47,222 for this pass-through money for our 
emergency management program. That was actually $43 less than 
the prior year and $82 less than the year before that.
    I really think that the funding levels should be 
increasing, not decreasing, if we are going to have adequate 
response to emergency management and disasters in this county.
    FEMA has been a vital part of response and recovery 
activities in the past. I think if they would have a renewed 
emphasis on having qualified, trained people respond to the 
disaster locations, consistent instruction and information 
provided, as well as improved coordination before disasters, 
then FEMA should be able to effectively carry out the mission 
that it has been given to perform.
    Again, thank you very much for allowing me to participate 
in this hearing.
    Mr. Shuster. Thank you, Ms. Kilgore.
    Next, Mr. Albert Ashwood, who is the Vice President of the 
National Emergency Management Association. Thank you for being 
here and please proceed.
    Mr. Ashwood. Thank you very much, Mr. Chairman, members of 
the Committee. I appreciate the opportunity to provide 
testimony on FEMA's ability to lead the recovery mission after 
Hurricane Katrina. I am representing the National Emergency 
Management Association, whose members are the State directors 
of emergency management. I am also the State Director of 
Emergency Management in Oklahoma.
    Today, you have asked me to speak to the question of FEMA's 
capacity and capability to direct the long term recovery 
mission along the Gulf Coast. I appreciate the opportunity to 
address this issue. However, I must first ask which FEMA we are 
discussing. Are we talking about the FEMA who responded to and 
led recovery efforts in the Oklahoma City bombing, Hurricane 
Floyd, the Northridge earthquake and the tragedies of September 
11th? Or are we talking about the current FEMA, with depleted 
manpower and funding, who is strained to respond to everyday 
disasters, much less the catastrophic damages caused by 
Hurricane Katrina.
    The post-9/11 FEMA is a shell of its former self. Over the 
past weeks, we have talked at great length about leadership 
qualifications, organizational structure and statutory 
responsibilities. Yet if all we do is talk, we should not be 
surprised when history repeats itself in future disasters.
    When I entered this profession 17 years ago, FEMA and 
emergency management in general were little more than a quasi-
military entity, spending all of its time figuring out where a 
nuclear attack was going to take place and how to relocate the 
Nation's citizens from one population target to a host 
community down the road. We worked extremely hard to stay in 
our cubicles and make sure as little attention as possible was 
directed toward our profession.
    In 1989, a disaster called Hurricane Hugo hit the 
Carolinas. Then-Senator Ernest Hollings of South Carolina made 
a statement to the media which I remember today. As he was 
standing in line at a disaster assistance center with his 
constituents, he simply said that FEMA was the biggest bunch of 
bureaucratic jackasses he had ever met in Federal Government.
    The reason I remember this quote is because it was 
accurate. He was correct, but things were about to change. In 
1992, Hurricane Andrew hit southern Florida. It was the most 
catastrophic disaster FEMA had responded to since its 
inception. Mistakes were made. Many of the same issues that we 
have talked about with Katrina were issues in Andrew.
    With Andrew on everyone's mind, the new Administration felt 
the need to elevate the importance of FEMA and the emergency 
management profession in the Federal Government. Changes came 
rapidly and FEMA adopted a motto of people helping people and 
lived up to that mantra through their partnerships with State 
and local government.
    Large disasters continued to occur: the Northridge 
earthquake, the Midwest floods, and yes, even the Oklahoma City 
bombing, a disaster which I was deeply involved in. I can 
promise you that the FEMA that responded to these disasters is 
the FEMA you want and every American citizen deserves.
    Unfortunately, we live in a reactionary country, and 
following the tragedies of September 11th, we all agreed that 
something had to be done to prevent future terrorist incidents. 
What was originally discussed as a coordinated effort of 
intelligence gathering between the FBI and CIA eventually 
evolved into the Department of Homeland Security, comprised of 
22 Federal agencies, including FEMA. An agency of this size 
must utilize and distribute its resources to best meet its 
needs: preventing and preparing to respond to acts of 
terrorism.
    Unfortunately, during the organization of DHS and future 
reorganizations, FEMA has gotten lost in the shuffle. Not only 
do they lack the manpower and financial resources they 
possessed in the mid to late 1990s, but they lack the authority 
and the position in the overall chain of command.
    I don't want anyone on the Committee to think I disagree 
with the mission of the Department of Homeland Security. In 
today's environment, it is essential that we expend all 
resources necessary to prevent and prepare for the next act of 
terrorism in this Country. However, we need not do it through 
the degradation of an existing success story. If you ask me if 
FEMA is the right Government agency to lead the long term 
recovery efforts concerning Katrina and Rita, I say they are 
the only agency with the knowledge and statutory authority 
capable of doing so.
    But we must give them the resources necessary to not only 
do their job, but to do their job the right way. It will take 
years for the Gulf Coast to return to the level of prosperity 
it had prior to Katrina. It is essential that the Gulf Coast is 
rebuilt with mitigation efforts in mind. If not, we are simply 
spending money to apply a band-aid to a region as it awaits the 
next Katrina.
    A fully staffed and funded FEMA must be there to not only 
accomplish that mission, but to prepare for and respond to 
future disasters. Personally, I have a few recommendations to 
succeed in this long term recovery mission. First, remove FEMA 
from the Department of Homeland Security and make it a 
standalone agency answering to the President of the United 
States.
    The emergency management mission, simply put, is one of 
coordination and support. It is a basic Wal-Mart at all levels 
of Government, where one stop shopping for resources and 
disaster assistance can be obtained. You cannot expect this and 
then establish a coordinator of the coordinator.
    Second, FEMA's funding and manpower must be returned to 
pre-DHS levels. It is asinine to think an agency can 
effectively respond and recover from disasters without a 
preparedness effort to accomplish this task.
    Third, the Federal Government is only as strong as its 
base, and regardless of what anyone tells you, disasters are 
local. If you want a strong FEMA, we need to have a strong 
State emergency management and a strong local emergency 
management. Funding for the emergency management performance 
grants has remained virtually stagnant for the last 15 years. 
The grant is currently funded at $180 million and is the only 
grant that funds emergency management on the local and State 
level.
    And it is a 50/50 matching grant. It requires local 
investment. This is quite different than the $2.3 billion of 
Homeland Security grants funded 100 percent federally and given 
to locals and States.
    In conclusion, FEMA is the right agency to meet the long 
term needs of the citizens of the Gulf Coast. I have many 
friends who work for FEMA who have been working 12 hour shifts, 
7 days a week for the last month only to wake up each morning 
and read about how inept their agency is and their leadership 
has become. Many of these people have been doing the same job 
for the past 20 plus years, and quite frankly, they do a good 
job. But we have to give them the support they need to do their 
job and to meet the expectations of the American citizens.
    Mr. Shuster. Thank you very much, Mr. Ashwood.
    I think you have all made yourself pretty clear on the 
macro question of FEMA and where you believe i should be. But I 
still want to go into sort of the micro question first, and 
then perhaps some other questions, since Mr. Taylor is here and 
Mr. Dent.
    First, I wish Mr. Rodriguez, I wish he could have stayed 
with us. One of the things that he said, and I guess really Mr. 
Buckley, to get your view of this and Ms. Kilgore's on the 
proper staff that came in, and again, Mr. Rodriguez isn't here 
to answer that. But in your experience on Katrina, in the 
aftermath here in the last couple of weeks, do you feel that 
the staff that came in from FEMA was knowledgeable, that they 
knew what they were doing? Can you give me generally what your 
sense of that was?
    Mr. Buckley. Well, in what I was doing in Hancock County, I 
didn't see anybody from FEMA the first several days. There may 
have been somebody there, but I never did see them. And we were 
having a hard time trying to find some place to work out of. 
The emergency operations center had been flooded, and after 
several days, mold and so forth, we were having to try to find 
some other place to move to. We moved to trailers in the alley 
and eventually to Stennis Airport, which was about some 12 
miles inland.
    Mr. Shuster. Ms. Kilgore, in Ivan, what would your comment 
be on the staff that came in from FEMA? Do you know if it was 
the permanent or the temporary staff that you were dealing 
with?
    Ms. Kilgore. It varied, as we heard earlier, where some of 
the ones that came in were very knowledgeable, and then others, 
you would get used to dealing with one and then they would be 
rotated out. So I guess they are part of their temporary pool 
that they had.
    Mr. Shuster. Did you know who you were dealing with, if you 
were dealing with a permanent or a temporary?
    Ms. Kilgore. Sometimes we did. Sometimes they just had the 
FEMA credentialing, so you weren't sure if they were 100 
percent a FEMA employee or if they were one of their disaster 
employees.
    Mr. Shuster. Right.
    Ms. Kilgore. But even some of the disaster employees they 
have are very, very knowledgeable in what they do, because they 
go and deal with the disasters a lot. It just depends on the 
individual and the instruction that they are getting and the 
consistency.
    Mr. Shuster. Experience.
    Ms. Kilgore. Exactly.
    Mr. Shuster. Even a temporary person can have tremendous 
experience. Yes, Mr. Buckley.
    Mr. Buckley. There was a FEMA representative in the EOC 
early on. His name was Eric, I don't remember his last name. 
But I thought you might have been talking about FEMA people 
that were coming in to help people to register and so forth 
like that. I thought that is what you were talking about.
    But early on, there was one person, his name was Eric.
    Mr. Shuster. I believe I met Eric, I was at Stennis Airport 
two weeks ago. Eric Gentry.
    Ms. Kilgore. He was in Pensacola.
    Mr. Shuster. Okay. One of the things we are looking at 
doing, and I just want to get all three of you to comment on 
it, is to lift the cap on the community disaster loan program 
from $5 million to unlimited. What are your thoughts? How 
important is that to a community, to be able to get those low 
income disaster loans?
    Mr. Ashwood. I think I can answer part of that. Having 
worked numerous disasters, there are very few items in the FEMA 
bag of tricks that are going to get a community back to the way 
economically it was prior to the disaster. We can rebuild the 
infrastructure, we can help out the individual victims. But as 
happened in Oklahoma in 1999, we had a community that was wiped 
out by a tornado and its three top employers all left town. 
There was nothing I could do to make sure that there was any 
prosperity for that community after that.
    The community loan program that you allude to is the one 
item that can be used to help that community through more of a 
long term process. Now, they will also work with the Department 
of Commerce to do everything that they can to make sure that 
the economic impact is lessened as greatly as possible. But 
that is the real issue. That is the one thing you can utilize.
    Mr. Shuster. Do you know that the community you are talking 
about, did it actually pay back that disaster loan? Because 
there are some communities that, based on their financial 
picture, those things are forgiven.
    Mr. Ashwood. Actually, in their case, they decided not to 
apply for that loan, because they had no idea whether they 
could pay it back or not. We did stress that most of those 
loans were forgiven, but at the same time, it was their city 
council's decision not to go that route.
    Mr. Shuster. Ms. Kilgore?
    Ms. Kilgore. Well, as you know, with Hurricane Ivan, we 
lost a good bit of our tax base. Quite frankly, we are still 
recovering from Hurricane Ivan over a year later. We estimate 
it will be at least another year before we even start getting 
up close to the area. Most people have not even started 
rebuilding.
    And now with Mississippi and Louisiana in that same area, 
contractors are really going to be at a premium. So I think 
local governments should have the ability to go after something 
that can keep them, to sustain them, to pay the bills and do 
the things that they need to do for their citizens, especially 
when you know it is going to be a three or four year process.
    Mr. Shuster. Do you know if Escambia County applied for 
that community disaster loan?
    Ms. Kilgore. Personally, I do not, but we can certainly 
find out for you.
    Mr. Shuster. Mr. Buckley, would you care to comment on that 
community disaster loan?
    Mr. Buckley. On infrastructure, with these municipalities 
and so forth trying to build back, the rule has generally been, 
well, you build it back to the way it was. But if the way it 
was is not what is going to get you through the recovery or if 
the way it was is not adequate, it may fall short of standards, 
or maybe it was borderline, well, then, maybe you should think 
about improving it a little bit.
    For instance, the levees in New Orleans, they are going to, 
my understanding from the news this morning was they are going 
to rebuild those sections back to the way they were. Well, this 
would be a prime opportunity to build them better than they 
were, at least in those sections. Then later on, they will have 
something to build onto.
    The infrastructure in these towns with sewage treatment and 
water systems and communications and things like that, if what 
you had before was not adequate, then don't penalize them for 
trying to put some increased capacity in there. Because this 
recovery process is going to be a long thing.
    Mr. Shuster. Right. And a final question on the macro 
question of FEMA, where do you see it, where does it belong. 
But before I let you answer that question, I just want to make 
sure of the experience I am dealing with here. Ms. Kilgore, did 
you say for 30 years--
    Ms. Kilgore. Thirty-two.
    Mr. Shuster. Thirty-two years. And Mr. Ashwood, how long 
have you been in emergency management?
    Mr. Ashwood. Seventeen years.
    Mr. Shuster. And Mr. Buckley?
    Mr. Buckley. Sixteen.
    Mr. Shuster. Sixteen years. So I have a pretty experienced 
crew here I'm talking to.
    The same question I posed to Governor Wise, if you had a 
magic wand and you could wave it, what would FEMA look like to 
each of you? Inside DHS? Outside DHS?
    Mr. Buckley. Outside DHS and back to the way it was before 
it was pretty much thrown in the gutter and then kicked when it 
couldn't respond.
    Mr. Shuster. And in the 16 years you have been in emergency 
management, now versus 4 or 5 years ago?
    Mr. Buckley. After Hurricane Andrew, it was fixed pretty 
good. It was a very responsive and user-friendly agency.
    Mr. Shuster. Not perfect, though?
    Mr. Buckley. No, not perfect. We all have things we need to 
work on.
    Mr. Shuster. I want to make sure we are painting the right 
picture here.
    Mr. Buckley. Sure.
    Mr. Shuster. Ms. Kilgore, your thoughts on FEMA, inside, 
outside?
    Ms. Kilgore. I think being separate again like it was would 
make a difference to those of us that deal with emergency 
management. I do think that preparedness and mitigation still 
need to play a very major role, as well as response and 
recovery, and that we need to make sure that that coordination 
is there through all levels of government.
    Mr. Shuster. And in your experience, did you see a marked 
difference in FEMA last year versus before?
    Ms. Kilgore. Yes, I have.
    Mr. Shuster. I just want to make sure I clarify. I thought 
I was in Escambia County a year ago. It was only eight months 
ago. Time flies.
    Mr. Ashwood, your views?
    Mr. Ashwood. I think I made it clear. I think that FEMA 
needs to be outside DHS, similar to the way it was in the mid 
to late 1990s. One of the things we keep talking about, we talk 
about a lack of funding and a lack of manpower. But one of the 
things that FEMA lost over this entire transformation is a 
great deal of institutional knowledge. There were a lot of 
people at FEMA who had worked there a very long time.
    When we started working through the terrorism, DHS 
standpoint, there was a lot of money that went out to private 
industries and is still going out to private industries, that 
needed that expertise base. So a lot of people who worked for 
FEMA back in the mid to late 1990s are now working in private 
industry as consultants and we have lost a great deal of 
institutional knowledge that was in FEMA previously.
    Mr. Shuster. Thank you. I yield to Mr. Taylor, if you have 
any questions.
    Mr. Taylor. Thank you, Mr. Chairman. Let me begin by 
thanking Mr. Buckley for coming to south Mississippi and my 
home county in particular. And Ms. Kilgore, I also want to 
thank the Floridians. The help that was provided from outside, 
from Bolivar County, from Florida was really well received, 
there was a lot of expertise.
    What Ms. Kilgore failed to mention, and I think that Mr. 
Brown completely missed last week in his testimony, obviously 
the first responders, the local first responders are extremely 
important. But FEMA ought to have a plan for when the first 
responders literally have their legs cut out from underneath 
them, as happened in Hancock County, when the vehicles were 
parked in a place that had never flooded before, and you had 
every police car, every fire engine, most of the emergency 
management equipment, went underwater in a flood that just 
simply was unimaginable.
    So we are very, very grateful for the outside help that we 
received.
    Mr. Buckley, I would like you to comment, because I think 
it is worth hearing, if you would tell the Committee what kinds 
of communications you saw for the first four days in Hancock 
County, how many radios were available to you?
    Mr. Buckley. It was completely third world. The only thing 
that we were able to use, we brought a communications bus. We 
have an agreement with Delta State University, we have an 
agreement for the bus with them. We installed communications 
equipment in that bus, and we hurried up to finish it so that 
we could go to Hancock County. When we arrived, we pretty much 
had the only communications with us that was in Hancock County.
    Mr. Taylor. What day was that?
    Mr. Buckley. That was the Tuesday after the storm. That 
Tuesday night, we had to wait for the roads to get cleared so 
that we could make it down there. So that was Tuesday night.
    Mr. Taylor. So that was over 24 hours since the storm. 
Prior to that, again, all I can do is ask you to confirm this, 
that there was one satellite phone.
    Mr. Buckley. And it was on my bus.
    Mr. Taylor. And it was owned by the National Guard. That 
was the total communications.
    Mr. Buckley. Oh, I am sorry, if the Guard had one, that 
would have been another one. But I had one in my bus. That 
doubled it.
    Mr. Taylor. What kind of sanitation did you see when you 
got there?
    Mr. Buckley. For several days there were no Port-A-Lets. I 
think they were brought in, I can't remember, I can't remember 
now what day it was. It had to be at least Thursday or Friday 
before Port-A-Lets arrived. It was probably on Friday. We were 
able to respond, my group, we were able to respond and be self-
sustaining. But that was a problem.
    Mr. Taylor. What did you see in the way of food?
    Mr. Buckley. We brought food with us. But as far as what 
was available for the first responders, again, they had lost 
their vehicles, many of them had lost their houses. But they 
were on the job, trying to do their job as best they could.
    Mr. Taylor. What were the first responders eating?
    Mr. Buckley. Most of the food that I saw around there was 
food that first responders, people responding like my group 
brought in with us. I didn't see any outside food. If it was 
there, I didn't see it.
    Mr. Taylor. Okay. What you missed then was that the first 
responders had looted the Wal-Mart and the Sav-A-Center in 
order to feed themselves. If you remember the guy they referred 
to as Boss Hogg, the stuff Boss Hogg was cooking had been 
looted from the Wal-Mart.
    Mr. Buckley. I remember Boss. Right. I seem to remember 
something about that now. I also brought him a pickup truck 
load of food myself, a week later, because he was running out 
of food. He came real close to running out of food several 
times.
    Mr. Taylor. One of the things that I found really 
frustrating in dealing with FEMA, and again, I want to hear 
your observation on this, that as, when the questions would be 
asked, when is the water coming, when are the MREs coming, the 
answer I kept getting is, it's in the pipeline. Then when you 
try to narrow it down, okay, is that pipeline in Alaska, is it 
in Arkansas, is it in North Mississippi, is it 100 miles from 
here, the answer is, we don't know.
    Was that your observation as well, that there was really 
poor coordination from FEMA as to what was coming, when it was 
going to arrive, and what the follow-on was going to be? 
Because I always found it was impossible to ration what you 
don't know you have, and even harder to ration what you don't 
know what you're getting.
    Mr. Buckley. That is right. We need a better tracking 
system. GPS I think would be great. Satellite communications in 
all those trucks, maybe we can work toward something like that. 
But the tracking system needs to be greatly improved.
    We ran into the same thing with fuel. Law enforcement was 
running out of fuel. At one time, I sent a message over to law 
enforcement that if a fuel tanker came into the county, you 
escort it in.
    Mr. Taylor. Again, Mr. Chairman, as you know, there is 
another hearing going on upstairs. I want to thank all of you 
for being here today and in particular, Kent, I want to thank 
you for coming down and helping out in south Mississippi.
    Mr. Buckley. I would describe it as a heartbreaking 
pleasure.
    Mr. Taylor. I really do want to thank all the Floridians. I 
promise never to say a bad thing about Florida again.
    [Laughter.]
    Mr. Shuster. I have heard you say good things about 
Florida. Escambia County, too, Pensacola.
    With that, Mr. Dent, five minutes for questions.
    Mr. Dent. Thank you, Mr. Chairman. Mr. Ashwood, I have a 
question for you. In your testimony, you have made some remarks 
about federalizing a disaster could be extremely difficult with 
so many agencies lending support to disaster.
    We have heard a lot of discussion since Katrina about what 
the role of the Federal Government should be, specifically the 
military, in the event of these types of catastrophic events 
that you have experienced down in the Gulf Coast. I would just 
like to hear you expand on that a little bit more. As you know, 
we have this layered system of response, local, State and 
Federal, FEMA.
    Mr. Ashwood. Yes, sir. And here again, I have to provide a 
caveat that I was not in the Gulf Coast responding to these 
disasters. So we all have to realize that this is something we 
have not experienced before in emergency management or in 
response, just by the enormity of it all.
    In disasters that I have worked, and I have worked numerous 
disasters, Oklahoma is no stranger to disaster, all disasters 
are local. I still stand by that statement. Because the first 
line of defense are your first responders. You have emergency 
medical, fire and law enforcement who are all there, the first 
ones in. Of course, the State is right there to help them out 
if they need additional resources, and the Federal Government 
is right behind that to make sure that the quickest response 
and the most efficient response is made as possible.
    With the Federal Government comes a defense coordinating 
officer. Any time there is an emergency declared or a major 
disaster declared under the Stafford Act, the Federal 
coordinating officer can ask the Defense coordinating officer 
to stand right next to him. If there is anything the Department 
of Defense has that can be applied to that response, it is 
immediately available.
    I have concerns just hearing, as you have, the reports on 
television and everything saying that the Federal Government 
was waiting for the State to ask for this, or the State was 
asking for the local government to ask for this. I know it was 
chaotic. But the fact of the matter is, in disasters I have 
worked, those people were all basically talking to each other 
in the same room.
    So it is not like somebody was sitting behind a desk 
waiting for somebody to ask me for help before I am going to do 
anything. I don't understand that statement. How it is supposed 
to work is basically as Mr. Brown pointed out in his testimony 
that it works from the bottom up, from local to State to 
Federal and the needs are met. But they are not done in a such 
a way that is disjointed, they are done working in cooperation 
and partnership together.
    So I don't know what happened in this disaster, but that is 
the way it has always worked in the past.
    Mr. Dent. Another question I had, all of you have indicated 
you would like to see FEMA as a standalone agency, direct 
report to the President. Other than having that direct ear of 
the President, what are the other principal reasons why you 
would like to see FEMA as a standalone?
    Mr. Ashwood. I will start that off. I guess I think it goes 
back to the all hazards approach. We have been preaching and 
planning all hazards for years now, that we don't need to have 
a hurricane plan and a tornado plan and a flood plan, because 
if you plan for all hazards you can take in the different 
aspects of all of those types of disasters.
    When the Department of Homeland Security started, we 
basically started saying, we need to plan for terrorism, and 
oh, by the way, the underwritten philosophy is that if we can 
plan for a terrorist event, then we are prepared for any event 
that the Country might face. I don't agree with that 
perspective. There are different incidents there.
    We used to have, prior to DHS, authorities were divided up 
between crisis management and consequence management. That made 
perfect sense to me. You have crisis management, which takes it 
on the front end. If we can catch the bad guy and keep the 
event from happening, by all means, let's do that. We all agree 
with that.
    But we have to be prepared for consequence management if we 
don't catch the bad guy. And that is where FEMA came in, 
because they were the experts in consequence management. They 
could come in and respond to the event that already happened, 
to make sure the resources were there, to make sure that the 
most effective response could be made.
    I never quite understood why that was a bad idea, this 
crisis management and consequence management. But it seemed 
like when DHS was initiated, we had to get rid of those two 
terms and make sure that it was all together in one department. 
So I think there are a lot of growing pains as to how that 
actually works out. Because a lot of things that DHS talks 
about are not really of interest to me as the State emergency 
manager for Oklahoma when it comes to terrorist intelligence 
and where we might get hit next.
    While it is very interesting to listen to, there is not a 
whole lot I can do to effectively respond until the event 
actually happens. Some will tell you that you need to pre-
position resources. Well, we do pre-position resources. FEMA 
pre-positions resources across the Nation for different types 
of disasters that could occur.
    But at the same time, you are not going to give me 72 hours 
to pre-position resources within my State because this is where 
the terrorist event might occur. We have to be prepared long 
before that.
    So I will pass that on and you can answer to that.
    Ms. Kilgore. Most of the things that I was going to mention 
he talked about, when he talked about the resources and the 
other things that were available to local governments. Having 
them in different areas is certainly important. I think what's 
happened with the Department of Homeland Security, in my 
opinion, is there has been a lot of money, a great deal of 
money that has gone out through State and local, and in some 
cases local government, more importantly probably in the State 
and regional areas.
    But it has more been on equipment and types of things to 
put in these stockpile areas, and as a result, there has not 
been a lot of emphasis on people but yet there has been a lot 
of direction coming down to the local area as to what each 
local emergency management agency has to accomplish as it 
relates to this plan or that plan or the other plan. But again, 
there are no dollars associated with that for us to keep up 
with everything that keeps coming down the tubes.
    Mr. Buckley. I agree with all of that. Homeland Security 
really does not understand the emergency management discipline 
as far as the all hazards approach and then the types of plans 
that we have had in the past. They are law enforcement focused, 
most of them, and they deal with intel and investigations and 
that sort of thing. Even in the State of Mississippi I had one 
of our highest homeland security persons in the homeland 
security office talk about, well, they need a separate plan, 
they need their own plan.
    Well, you need to plan for all hazards and that needs to be 
part of it. You don't need to start having 15 different plans 
for everything that could happen. We learned that lesson time 
and again.
    So FEMA needs to be a separate agency, and emergency 
management is a little different from some of these other 
disciplines, in that emergency management is a coordinating 
agency and a resource agency and is not focused just on fire 
service and law enforcement and emergency medical, but we 
coordinate with all those people. And it is a little different.
    Mr. Dent. Thank you.
    Mr. Shuster. I think that is one of the big lessons of 
Katrina, is a lack of coordination. I think you are absolutely 
right, I had somebody, it was actually former FEMA Director 
Brown, I think it was him, that said we need to have less 
engineers at FEMA and more coordinating type people, contract 
administrators, because that is what you folks do in your 
business and your world.
    I want to thank you very much for coming here today. I 
can't tell you how important it is that folks like you come and 
testify before the Committee. Because the only way that we can 
gain the knowledge from folks like you that are in the field, 
first-hand knowledge, I have emergency responders in my 
district I talk to, but to be able to get a perspective from 
around the Country and those different experiences is essential 
to those of us on this Committee and in Congress to be able to 
hopefully make wise decisions.
    Sometimes we make knee-jerk decisions, but we want to try 
to protect against that with the information that you folks 
provide. You do that, so I thank you all very, very much for 
being here. I appreciate it.
    And I would ask unanimous consent that the record of 
today's hearing remain open until all witnesses have provided 
answers to questions submitted to them in writing, and 
unanimous consent that during such time as the record remains 
open, additional comments offered by individuals or groups may 
be included in the record of today's hearing. Without 
objection, so ordered.
    And again, thank you very much. The Committee stands 
adjourned.
    [Whereupon, at 3:10 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5914.001
    
    [GRAPHIC] [TIFF OMITTED] T5914.002
    
    [GRAPHIC] [TIFF OMITTED] T5914.003
    
    [GRAPHIC] [TIFF OMITTED] T5914.004
    
    [GRAPHIC] [TIFF OMITTED] T5914.005
    
    [GRAPHIC] [TIFF OMITTED] T5914.006
    
    [GRAPHIC] [TIFF OMITTED] T5914.007
    
    [GRAPHIC] [TIFF OMITTED] T5914.008
    
    [GRAPHIC] [TIFF OMITTED] T5914.009
    
    [GRAPHIC] [TIFF OMITTED] T5914.010
    
    [GRAPHIC] [TIFF OMITTED] T5914.011
    
    [GRAPHIC] [TIFF OMITTED] T5914.012
    
    [GRAPHIC] [TIFF OMITTED] T5914.013
    
    [GRAPHIC] [TIFF OMITTED] T5914.014
    
    [GRAPHIC] [TIFF OMITTED] T5914.015
    
    [GRAPHIC] [TIFF OMITTED] T5914.016
    
    [GRAPHIC] [TIFF OMITTED] T5914.017
    
    [GRAPHIC] [TIFF OMITTED] T5914.018
    
    [GRAPHIC] [TIFF OMITTED] T5914.019
    
    [GRAPHIC] [TIFF OMITTED] T5914.020
    
    [GRAPHIC] [TIFF OMITTED] T5914.021
    
    [GRAPHIC] [TIFF OMITTED] T5914.022
    
    [GRAPHIC] [TIFF OMITTED] T5914.023
    
    [GRAPHIC] [TIFF OMITTED] T5914.024
    
    [GRAPHIC] [TIFF OMITTED] T5914.025
    
    [GRAPHIC] [TIFF OMITTED] T5914.026
    
    [GRAPHIC] [TIFF OMITTED] T5914.027
    
    [GRAPHIC] [TIFF OMITTED] T5914.028
    
    [GRAPHIC] [TIFF OMITTED] T5914.029
    
    [GRAPHIC] [TIFF OMITTED] T5914.030
    
    [GRAPHIC] [TIFF OMITTED] T5914.031
    
    [GRAPHIC] [TIFF OMITTED] T5914.032
    
    [GRAPHIC] [TIFF OMITTED] T5914.033
    
    [GRAPHIC] [TIFF OMITTED] T5914.034
    
    [GRAPHIC] [TIFF OMITTED] T5914.035
    
    [GRAPHIC] [TIFF OMITTED] T5914.036
    
    [GRAPHIC] [TIFF OMITTED] T5914.037
    
    [GRAPHIC] [TIFF OMITTED] T5914.038
    
    [GRAPHIC] [TIFF OMITTED] T5914.039
    
    [GRAPHIC] [TIFF OMITTED] T5914.040
    
    [GRAPHIC] [TIFF OMITTED] T5914.041
    
    [GRAPHIC] [TIFF OMITTED] T5914.042
    
    [GRAPHIC] [TIFF OMITTED] T5914.043
    
    [GRAPHIC] [TIFF OMITTED] T5914.044
    
    [GRAPHIC] [TIFF OMITTED] T5914.045
    
    [GRAPHIC] [TIFF OMITTED] T5914.046
    
    [GRAPHIC] [TIFF OMITTED] T5914.047
    
    [GRAPHIC] [TIFF OMITTED] T5914.048
    
    [GRAPHIC] [TIFF OMITTED] T5914.049
    
    [GRAPHIC] [TIFF OMITTED] T5914.050
    
    [GRAPHIC] [TIFF OMITTED] T5914.051
    
    [GRAPHIC] [TIFF OMITTED] T5914.052
    
    [GRAPHIC] [TIFF OMITTED] T5914.053
    
    [GRAPHIC] [TIFF OMITTED] T5914.054
    
    [GRAPHIC] [TIFF OMITTED] T5914.055
    
    [GRAPHIC] [TIFF OMITTED] T5914.056
    
    [GRAPHIC] [TIFF OMITTED] T5914.057
    
    [GRAPHIC] [TIFF OMITTED] T5914.058
    
    [GRAPHIC] [TIFF OMITTED] T5914.059
    
    [GRAPHIC] [TIFF OMITTED] T5914.060
    
    [GRAPHIC] [TIFF OMITTED] T5914.061
    
    [GRAPHIC] [TIFF OMITTED] T5914.062
    
    [GRAPHIC] [TIFF OMITTED] T5914.063
    
    [GRAPHIC] [TIFF OMITTED] T5914.064
    
                                    

</pre></body></html>
